<html>
<title> - LEGISLATIVE PROPOSALS TO INCREASE WORK AND HEALTH CARE OPPORTUNITIES FOR PUBLIC AND SUBSIDIZED HOUSING RESIDENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                   LEGISLATIVE PROPOSALS TO INCREASE
                 WORK AND HEALTH CARE OPPORTUNITIES FOR
                PUBLIC AND SUBSIDIZED HOUSING RESIDENTS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2009

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-63




                  U.S. GOVERNMENT PRINTING OFFICE
53-243 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            THADDEUS G. McCOTTER, Michigan
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              GARY G. MILLER, California
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
PAUL E. KANJORSKI, Pennsylvania      ADAM PUTNAM, Florida
LUIS V. GUTIERREZ, Illinois          KENNY MARCHANT, Texas
STEVE DRIEHAUS, Ohio                 LYNN JENKINS, Kansas
MARY JO KILROY, Ohio                 CHRISTOPHER LEE, New York
JIM HIMES, Connecticut
DAN MAFFEI, New York
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 20, 2009................................................     1
Appendix:
    July 20, 2009................................................    45

                               WITNESSES
                         Monday, July 20, 2009

Burris, Lisa, Director of Organizing, Good Old Lower East Side...    28
Drinane, Suleika Cabrera, President and Chief Executive Officer, 
  Institute of Puerto Rican/Hispanic Elderly, Inc................    33
Graham, Yvonne J., Deputy President, Brooklyn Borough............    13
Henriquez, Hon. Sandra Brooks, Assistant Secretary for Public and 
  Indian Housing, U.S. Department of Housing and Urban 
  Development....................................................     6
Jones, David R., President and Chief Executive Officer, Community 
  Service Society of New York City...............................    25
Joseph, Keith, Vice President, Homecare Division, 1199 Service 
  Employees International Union (SEIU) United Healthcare Workers 
  East...........................................................    36
Mark-Viverito, Hon. Melissa, District 8 Council Member, New York 
  City Council...................................................    15
McReynolds, Larry, Executive Director, Lutheran Family Health 
  Centers........................................................    34
Musolino, Mario, Executive Deputy Commissioner, New York State 
  Department of Labor............................................    10
Rammler, David T., Attorney and Director of Government Relations, 
  National Housing Law Project...................................    26
Rhea, John B., Chairman, New York City Housing Authority.........    12
Rice, Douglas, Senior Policy Analyst, Center for Budget and 
  Policy Priorities..............................................    30
Rodat, Carol A., New York Policy Director, Paraprofessional 
  Healthcare Institute...........................................    31
Trasvina, Hon. John D., Assistant Secretary for Fair Housing and 
  Equal Opportunity, U.S. Department of Housing and Urban 
  Development....................................................     8

                                APPENDIX

Prepared statements:
    Drinane, Suleika Cabrera.....................................    46
    Garcia, Aida.................................................    53
    Henriquez, Hon. Sandra Brooks................................    55
    Jones, David R...............................................    58
    Mark-Viverito, Hon. Melissa..................................    60
    Markowitz, Marty.............................................    64
    McReynolds, Larry............................................    68
    Musolino, Mario..............................................    73
    Rammler, David T.............................................    81
    Rhea, John B.................................................    90
    Rice, Douglas................................................    95
    Rodat, Carol A...............................................   108
    Trasvina, Hon. John D........................................   118
    Yanis, Christy...............................................   122

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written responses to questions submitted to Larry McReynolds.   127
    Written responses to questions submitted to Mario Musolino...   129
    Written responses to questions submitted to David T. Rammler.   133
    Written responses to questions submitted to Douglas Rice.....   136

 
                   LEGISLATIVE PROPOSALS TO INCREASE
                   WORK AND HEALTH CARE OPPORTUNITIES
                       FOR PUBLIC AND SUBSIDIZED
                           HOUSING RESIDENTS

                              ----------                              


                         Monday, July 20, 2009

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:20 a.m., at 
City Hall, New York, New York, Hon. Maxine Waters [chairwoman 
of the subcommittee] presiding.
    Members present: Representatives Waters and Velazquez.
    Also present: Representative Maloney.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    Good morning, ladies and gentlemen. Welcome to the 
Subcommittee on Housing and Community Opportunity's New York 
City field hearing entitled, ``Legislative Proposals to 
Increase Work and Health Care Opportunities for Public and 
Subsidized Housing Residents.'' Thank you all for joining us 
this morning.
    I would like to begin by thanking the New York City Council 
for graciously allowing us to use this very beautiful place for 
today's hearing.
    Thank you, Speaker Quinn, and especially Thomas Allen and 
Chuck Ferrara for all of your help in arranging the use of this 
chamber.
    The reason we are all here today is because of the bold and 
admirable leadership of Chairwoman Nydia Velazquez, New York 
City member of the Housing Subcommittee and our very able 
chairwoman of the Small Business Committee of the Congress of 
the United States of America.
    Ms. Velazquez is a true champion for the rights of 
residents of public and subsidized housing and has been 
dedicated to the Brooklyn community she serves, as well as the 
neediest communities throughout the country.
    I commend Ms. Velazquez for her tireless work on improving 
the lives of public housing and subsidized housing residents 
everywhere.
    The very, very special thing about Nydia Velazquez is she 
is able to be the best advocate for small businesses, a 
distinction in the Congress of the United States of America, 
helping to increase jobs, because small businesses are creating 
more jobs in this economy than big business.
    And she does that while keeping a hand right in the 
district on public housing. I'm here today because she has 
created proposals and she asked if I would come and hold this 
subcommittee hearing here. I'm very, very pleased to be here 
with her in her leadership.
    I would also like to thank our ranking member of the 
Housing Subcommittee, Shelly Moore Capito, who very much wanted 
to be here today but was unable to attend.
    We have some very, very special other members of the House 
Financial Services Committee who are with us today. Of course, 
Congresswoman Carolyn Maloney of the 14th District in New York, 
and Congressman Greg Meeks will be joining us, representing the 
6th District, a little later.
    Carolyn Maloney, as you know, did a wonderful job of 
helping this country to deal with the credit card abuses, 
helping not only to pass it, and worked very hard initiating 
the Credit Cardholders' Bill of Rights.
    Thank you very much, Carolyn, for your work.
    I would also like to thank Congressman Ed Towns of the 10th 
District of New York, and Congressman Anthony Weiner of the 9th 
District. I think they will be here this morning a little bit 
later to support and engage in this important discussion of 
public housing issues.
    And with that, I will ask unanimous consent that 
Representatives Carolyn Maloney, Greg Meeks, Ed Towns, and 
Anthony Weiner be considered members of the subcommittee for 
this hearing.
    Today's hearing will address the important legislation Ms. 
Velazquez is drafting to improve and expand opportunities for 
jobs and health care access for residents of public housing and 
subsidized housing. The need to assist public housing residents 
in accessing health care and employment opportunities is 
significant in New York City.
    The New York City Housing Authority is the largest provider 
of Federal public housing units in New York City, with over 
178,000 public housing units and 338 developments.
    Furthermore, the New York City Housing Authority represents 
about 8.4 percent of New York City's rental apartments and 
houses, 4.8 percent of the City's population, which amounts to 
over 402,700 residents.
    The first legislative proposal is the Earnings and Living 
Opportunities Act, which would reform the Section 3 Program to 
expand job opportunities for residents of public housing. To 
help connect low-income residents to employment opportunities, 
HUD established the Section 3 Program in 1968, which requires a 
certain project funded by HUD must meet specific goals for 
contracting hires and training low-income people to work on 
this project.
    The program serves public housing residents and those who 
live in an area where a citizen's project is located and have 
an income below either 50 or 80 percent below the median income 
of that area, depending on HUD income limits for the area.
    Unfortunately, there has been little enforcement and 
compliance with this program. Few public housing agencies or 
other HUD grant recipients had met their obligation under the 
law.
    In 2003, the HUD Inspector General found that HUD lacked 
basic control on compliance. Furthermore, HUD's Office of Fair 
Housing and Equal Opportunity has few enforcement options under 
current regulation. However, I'm encouraged to know that the 
potential for job for low-income residents under Section 3 is 
significant.
    As we saw, a public housing rehabilitation program, some 
estimated that over 15,000 jobs could be produced annually for 
public housing residents. With the appropriate guidelines and 
requirements in place, I'm confident that Section 3 can fulfill 
its original purpose to lift poor people out of poverty. 
Representative Velazquez's bill, the Earnings and Living 
Opportunities Act, would fix the Section 3 Program to increase 
and create more types of training and job opportunities while 
strengthening the monitoring and compliance of the Section 3 
Program.
    She certainly has my full support and I look forward to the 
introduction of her report to Legislature. Her other proposal 
is the Together We Care Act, which would provide public housing 
residents to become trained as home health care aides for the 
aging low-income population in public and subsidized housing.
    With that, I'm going to recognize Ms. Velazquez for her 
opening statement.
    Ms. Velazquez. Thank you, Madam Chairwoman.
    Good morning, everyone. I want to really take this 
opportunity to thank Chairwoman Waters for holding this 
important hearing. And I would have to say, she has been one of 
the strongest, leading voices in Congress on public housing and 
tenant's rights. And we have gone so far and we have 
accomplished so much compared to the last 8 years that, I have 
to say, so many working families in our country, Congresswoman 
Maxine Waters are indebted to your commitment and compassion to 
make sure that working families in America have a better 
tomorrow, especially in cities like New York, Boston, and Los 
Angeles, where the real estate market is going through the 
roof. That is the last frontier that we have and what we can 
offer to working families, public housing.
    So, let me take this opportunity to also thank Speaker 
Quinn and her able staff for hosting us today and the entire 
New York City Congressional Delegation, especially 
Congresswoman Carolyn Maloney.
    Madam Chairwoman, our State is home to the Nation's largest 
public housing authority. As many New Yorkers know, this 
program doesn't just provide affordable housing, it helps 
foster economic development in underserved communities. Given 
the economic downturn and the many challenges that our Nation 
is facing today, from housing foreclosure to rising 
unemployment, especially among African Americans, Latinos, and 
Asians, the timing of this hearing couldn't have been more 
appropriate.
    Today, we will examine two proposals that came to ensure 
our housing system delivers for working families.
    Currently, the average one-bedroom apartment in New York 
costs $2,600 a month, an amount among the highest in the Nation 
and out of the reach of so many, especially public housing 
residents. In fact, the average income for a family living in 
affordable housing is just over $22,000 a year.
    If we can help these hardworking families find adequate 
employment, it will increase their options and help improve 
their lives and communities. Job training and placement has 
long been the primary purpose of Section 3. The program 
requires HUD contractors to employ working men and women while 
rebuilding their own communities. However, the program has not 
evolved to its promise from from Bush, Sr, to Clinton, to Bush, 
Jr. They have tried to really reform Section 3. They have tried 
to make it work, but it hasn't.
    In 2005, there were at least 20,000 public housing 
residents looking for jobs in New York City. Last year, they 
reported finding work through Section 3 for just 10 residents. 
Especially with the unemployment rate today of 9.5 percent, New 
Yorkers cannot afford for this program to fail. And given the 
increased Federal investment in public housing that the 
economic recovery package provides to New York, it is the right 
time to make sure that Section 3 lives up to its promise.
    We need to expand training opportunities and promote 
entrepreneurship within the public and subsidized housing 
community. It is important to place emphasis on hiring 
benchmarks and make clear that when a business accepts a 
contract with NYCHA or HUD, it has an obligation to hire local 
workers. With solely jobs and contracting goals, we can improve 
oversight and ensure accountability for the Section 3 Program, 
but most importantly, put Americans back to work.
    Since 2003, I have promoted efforts to strengthen and 
enforce Section 3 regulations and I will be working with the 
chairwoman to move legislation again this year. This is not the 
only area of improvement needed for New York City's affordable 
housing. It is no secret that our country is aging.
    In my district alone, there are 30,000 seniors living in 
public housing. And nationwide, nearly 1 in 3 HUD households is 
home to an elderly person. While the number of people is 
expected to double by 2030, the number of family members 
available to take care of them is not keeping pace. This 
presents an opportunity and challenge to train public housing 
residents to meet this home's health care demand.
    This is a win-win. It is a win-win for seniors who live in 
public housing and it is a win-win for residents. Because if 
they could be trained, if they could get a certification, they 
will be able to get a well-paying job.
    NYCHA would win, because then these people will pay more to 
cover their rent. So, in the last Congress, I introduced the 
Together We Care Act. The purpose of this bill is to educate 
and instruct HUD tenants in the field of home health care 
services.
    Not only will this increase employment prospects for 
residents, it increases health care options for those in their 
golden years. The bill will enable tenants to forge sustainable 
careers in the modern industry. And at the end of the day, that 
is what housing programs should be about, self-sufficiency and 
financial independence.
    I will be reintroducing this legislation shortly and I look 
forward to working with Chairwoman Waters and all of the 
members of the Financial Services Committee to move it forward.
    And Chairwoman Waters, without objection, I would like a 
written statement and letters of support of the following 
organizations that I included here be made part of the record 
for this hearing.
    Chairwoman Waters. Without objection.
    Ms. Velazquez. With that, I thank you. Thank you very much.
    Chairwoman Waters. Ms. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you very much.
    First, it is a great honor for me to be back in the City 
Council Chambers in which I had the honor of serving for 10 
years with my good friend, Nydia Velazquez. And a special 
welcome to council member Melissa Mark-Viverito, who is an 
outstanding advocate for public housing, helping people in all 
good causes.
    And I congratulate and thank Chairwoman Waters who is--I 
admire her tremendously. She always nails her position to the 
masthead and she doesn't move. And when I started on the Credit 
Card Bill of Rights, there were a lot of push-backs and there 
was one person who was there at every hearing, every meeting, 
always speaking up, always working hard, Maxine Waters.
    We are really very privileged in this country to have her 
as the chair of the Housing Subcommittee when there is such a 
desperate need of housing in this country. And she has moved 
forward numerous bills to help people and worked selflessly to 
do so.
    And Nydia Velazquez is the first woman to chair the Small 
Business Committee in history. Her whole life is a series of 
remarkable firsts in her work in Congress and in so many ways. 
And I am thrilled to be a strong supporter of this initiative.
    It takes Nydia's leadership to take a bill that has been on 
the books since 1968, dust it off, put it back to work, and 
turn it onto a mandate, because this is an unfunded mandate. 
Since 1968, she has been funding it to provide jobs, probably 
the biggest problem in our City now, with unemployment at 7 
million since the crisis started with the economy. But this 
money will help create jobs, train residents, and provide money 
for contracting with businesses run by low-income people.
    My only addition is that the $2 million is not enough. I 
would support her in pushing it up to $50 million. I think that 
this is a program that is national and it needs more funding to 
make it happen. But she is not only helping public housing and 
housing but individuals. And I would just say that New York 
State has a lot of the firsts--has a lot of things to be proud 
of, but one of them is our public housing operation.
    When Nydia and I served on the City Council, there were 
700,000 people waiting to get into New York City public 
housing. There are now 200,000 people waiting to get into New 
York City public housing. It is a tremendous success in so many 
ways. And also New York City's regional HUD, I think, is the 
best in the Nation. It is creative. As for our housing 
authority, I would put the rest of my remarks on the record, 
because I'm looking forward to hearing what you have to say.
    Thank you so much. And thank you, Nydia, and thank you, 
Maxine, for having this important hearing.
    Chairwoman Waters. You are certainly welcome.
    Our first panel, I would like to ask Representative 
Velazquez to read the names of the supporters that we have 
placed in the record. In order to have the record completed, we 
must have each of the names of the organizations.
    Ms. Velazquez. Yes, Chairwoman Waters. Without objection, I 
would like the written statements and letters of support for 
the following organizations to be made part of the record for 
the hearing:
    Commonwealth Housing Legal Services; Corporation for 
Supportive Housing of New York; Council of Large Public Housing 
Authorities; Lawyer's Committee for Civil Rights Under Law; 
Legal Aid Society, New York; National Black Chamber of 
Commerce; National Low Income Housing Coalition; New York City 
Comptroller, William ``Bill'' Thompson; Paraprofessionals 
Healthcare Institute; Pastor Frederick Newell of St. Paul, 
Minnesota; Sam Jackson of New Orleans and Willy ``JR'' Fleming 
of the Coalition to Protect Public Housing; St. Nicholas 
Neighborhood Preservation Corporation; Supportive Housing 
Network of New York, Transportation Equity Network; United Job 
Creation Council of California, United Neighborhood Houses of 
New York.
    Thank you.
    Chairwoman Waters. Without objection, they will be added to 
the record.
    I would like to introduce our first panel.
    Our first witness is the Honorable Sandra Henriquez, 
Assistant Secretary for Public and Indian Housing, from the 
U.S. Department of Housing and Urban Development.
    Our second witness will be the Honorable John Trasvina, 
Assistant Secretary for Fair Housing and Equal Opportunity, 
U.S. Department of Housing and Urban Development.
    Our third witness will be Mr. Mario Musolino, executive 
deputy commissioner, New York State Department of Labor.
    Our fourth witness will be Mr. John Rhea, chairman of the 
New York City Housing Authority.
    Our fifth witness will be Ms. Yvonne Graham, deputy 
president, Brooklyn Borough Hall.
    And our sixth witness will be the Honorable Melissa Mark-
Viverito, District 8 council member, New York City Council.
    Thank you very much for appearing before the subcommittee 
today. Without objection, your written statements will be made 
a part of the record. You will now be recognized for a 5-minute 
summary of your testimony, starting with Ms. Sandra Henriquez.

 STATEMENT OF THE HONORABLE SANDRA BROOKS HENRIQUEZ, ASSISTANT 
  SECRETARY FOR PUBLIC AND INDIAN HOUSING, U.S. DEPARTMENT OF 
                 HOUSING AND URBAN DEVELOPMENT

    Ms. Henriquez. Good morning.
    Thank you, Chairwoman Waters, and the distinguished Members 
of Congress. I am Sandra Henriquez, Assistant Secretary for 
Public and Indian Housing. I want to thank you for having me 
here today.
    I would like to begin by thanking Representative Velazquez 
for her creative and thoughtful work toward addressing the 
pressing needs of not only one, but two groups of citizens in 
need of assistance to become and remain self-sufficient. The 
Together We Care Act of 2009 proposes a pilot grant program to 
train work-able adults living in public housing to provide 
necessary in-home personal care services for elderly and 
disabled residents of public and assisted housing. And clearly, 
this was mentioned as a win-win approach.
    I also commend the fact that this Act allows the services 
to be provided to residents of both public and various types of 
assisted housing. Under the leadership of Secretary Donovan, 
HUD is looking to cross long standing silos that have 
artificially divided essentially similar beneficiaries of 
housing assistance based on the source of funding.
    To this end, we recommend that the eligible recipients of 
this training be expanded to Housing Choice Voucher holders as 
well as residents of conventional public housing.
    As can be expected, as the average age of the Nation 
increases, the average age of residents of public housing also 
increases. For the elderly and disabled residents on fixed 
incomes, public or assisted housing is often their last 
independent housing option. As seniors age, they find 
themselves in need of assistance with activities of their daily 
lives.
    However, when on a fixed income, many residents of public 
and assisted housing cannot afford access to in-home personal 
care that can be a vital and sustained step between independent 
living and full nursing home care.
    A recent HUD study showed that the presence of a service 
coordinator was associated with lengths of resident occupancy 
that were 10 percent, or more than 6 months, longer than at 
facilities without Service Coordinators, controlling other 
factors.
    The average cost of homemaker services is about $18 per 
hour. If you contrast that with $187 per day in a shared room 
in a nursing home, you can see the difference is quite 
dramatic. If limited in-home service provision can successfully 
delay the costly institutionalization of the residents, it has 
a potential to create substantial savings, in human costs as 
well as financial.
    In the past several years, HUD has modified its supportive 
services programs, to conform across housing programs to the 
Service Coordinator model. This model is one wherein HUD 
provides the salary for a Service Coordinator position as part 
of the housing authority or property management staff.
    The role of the Service Coordinator is to form 
collaborative partnerships with State- and locally-funded 
agencies, nonprofits, community colleges, banks, and businesses 
to offer activities and services to residents. Too often, in 
the absence of a Service Coordinator, we find that although 
excellent services may be available in the neighborhood 
community, our residents do not access them.
    In assisted housing, the presence of the Service 
Coordinators has been shown to reduce property damage, 
turnover, and evictions, thus assisting residents to move to 
self-sufficiency or remain independent while saving money for 
property operations, a preventive management tool, if you will.
    With the Service Coordinator model in mind, we will be sure 
that the Together We Can Act's pilot program allows joint 
applications that leverage existing programs and services 
through critical partnerships. We should take advantage of the 
training programs and successful businesses already in place, 
instead of expecting a public housing authority to create a new 
training program or manage the employment of its residents.
    Effectively partnering with the local public work force 
system, which was recently encouraged by Secretary Donovan and 
the Department of Labor Secretary Solis's joint letter to 
housing authorities and Workforce Investment Boards, is 
essential to provide opportunities for residents to continue 
their path to be self-sufficient once they get their foot in 
the door.
    Involving a home health agency as the employer also opens 
the door for further training and advancement along their 
career ladder, something that the Public Housing Authority 
cannot provide. Strong partnerships are recommended to execute 
these programs in the most efficient manner.
    The bill proposes funds to pay for the services to be 
provided to public and assisted housing residents. Most 
residents of public and assisted housing will not have the 
disposable income to hire in-home personal care services 
independently.
    Residents at below 30 percent of area median income will 
likely qualify financially for benefits with Medicaid, but 
higher-income residents may not.
    In addition, there are specific functional steps to qualify 
for Medicaid in-home personal care services. Even if these 
residents qualify, the level of the benefits and availability 
of funding varies State by State. We recommend that the State 
Medicaid Program should be involved as a partner, as well.
    Again, we applaud the effort that went into this bill. We 
support the intent of the program. We look forward to 
implementing the creative approach for self-sufficiency for 
families and for our senior and disabled residents.
    Thank you.
    [The prepared statement of Assistant Secretary Henriquez 
can be found on page 55 of the appendix.]
    Chairwoman Waters. The second witness will be the Honorable 
John Trasvina.

    STATEMENT OF THE HONORABLE JOHN D. TRASVINA, ASSISTANT 
    SECRETARY FOR FAIR HOUSING AND EQUAL OPPORTUNITY, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Trasvina. Good morning. On behalf of the Department of 
Housing and Urban Development, I am pleased to discuss the 
importance of fostering job opportunities in public housing and 
the Department's responsibilities related to Section 3 of the 
HUD Act of 1968. I want to thank both Chairwoman Waters and 
Chairwoman Velazquez for holding this hearing.
    You both represent metropolitan areas that have a 
significant population of low-income residents, the very 
population Section 3 is meant to assist with economic 
opportunities. For too long, we have focused on buildings and 
not people. Section 3 enforcement, job opportunities, and 
residents have suffered by this approach. We are determined to 
fix it, and we will.
    In the few days and weeks the key actors have been in place 
in the Department, we have developed a plan and strategy for 
Section 3 and public housing residents giving them the serious 
attention they merit. We must ensure that HUD funds result in 
meaningful employment, training, and contracting opportunities 
for low-income persons throughout the country.
    The new leadership at HUD is ready to make this happen, and 
we appreciate the reforms Congresswoman Velazquez offered in 
the Earnings and Living Opportunities Act to further this 
effort.
    Congress passed Section 3 to ensure that the effects of HUD 
investments in local economies reach low- and very-low-income 
residents in the form of wages, contracts to businesses that 
are owned or who employ them, and sales revenue for those in 
the community who provide services to the community.
    Section 3 requires that when certain HUD-funded recipients 
hire new personnel, they give preference to low- and very-low-
income persons and/or businesses owned by these persons, or 
that substantially employ these persons, and that, to the 
greatest extent feasible, 30 percent of the new hires be 
Section 3 covered persons.
    Now, one of the obstacles before us is in is in the 
language, ``to the greatest extent feasible.'' Nonetheless, 
there are some successes. The Department conducted a compliance 
review for Kansas City, Missouri, after several complaints in 
regard to compliance. The review resulted in a number of 
findings and corrective actions that the Department issued that 
it instructed Kansas City to implement. Kansas City not only 
took the Department's findings seriously, it dedicated a 
significant amount of time and resources to the development of 
policies and procedures that resulted in a significant increase 
in employment and contracting opportunities for Section 3 
residents.
    Kansas City provided 39 percent of its funding for Section 
3 residents and awarded 26 percent of the total dollar amount 
of all contracts to Section 3 business concerns.
    Nonetheless, prior to 1986, FHEO, my office, received 
reports for only about 4 percent of covered recipient agencies. 
Since then, reporting has increased to 25 percent, and 80 
percent of the reports showed the recipients failed to meet the 
minimum goals and did not provide an adequate explanation.
    As an incoming Assistant Secretary, I was dismayed to learn 
this, but today's leadership is committed to do better and 
bring about meaningful compliance with Section 3.
    The Department has been using webinars and satellite 
broadcasts to provide consistent training on the requirements 
of Section 3 to large audiences of recipients and HUD staff. We 
have appeared before the Public Housing Authority Directors 
Association and the National Council of State Housing Agencies.
    Later this month, we will be conducting more training for 
all Departmental employees for Section 3. To increase the rate 
of compliance and quality of information provided, we are 
revising the annual reporting form. In the next 60 days, we 
will also remind recipients of their duty to comply with 
Section 3.
    I am pleased that Assistant Secretary Henriquez and our new 
Assistant Secretary for Community Funding and Development will 
join me in this regard. However, if educational requirements 
and outreach to recipients do not increase compliance, we will 
impose the available sanctions for noncompliance.
    To further establish incentives to create economic 
opportunities, Secretary Donovan and Secretary Solis entered 
into a partnership to promote employment opportunities for 
residents of public housing.
    We are now focused on the American Recovery and 
Reinvestment Act of 2009 with Section 3 in mind. It has two key 
purposes: To preserve and create jobs and promote economic 
recovery; and to assist those folks seriously affected by the 
current economic downturn.
    We agree that a significantly more robust Section 3 program 
at HUD is critical to promote more economic opportunity for 
low-income residents.
    We now have a leadership in HUD that is committed to more 
aggressive outreach to HUD recipients, to advise them of their 
obligations under Section 3. And we'll work collaboratively to 
achieve compliance.
    Also, as suggested in your discussion draft, the Department 
has already gone beyond the four walls of HUD to collaborate 
with other Federal agencies on joint efforts to integrate 
Section 3 into the wide range of economic recovery activities.
    Thank you for bringing long-needed attention to ways to 
strengthen the promise of Section 3, and for allowing me to 
testify today. I will look forward to answering your questions 
and working on the legislation.
    [The prepared statement of Assistant Secretary Trasvina can 
be found on page 118 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Musolino?

STATEMENT OF MARIO MUSOLINO, EXECUTIVE DEPUTY COMMISSIONER, NEW 
                 YORK STATE DEPARTMENT OF LABOR

    Mr. Musolino. Thank you very much, Madam Chairwoman. Thank 
you, Congresswoman Velazquez, as well. I appreciate the 
opportunity to be here to comment on these proposals on behalf 
of Governor Paterson and Commissioner Smith. I'm particularly 
interested in this. I have come here not just as executive 
deputy commissioner of the State Department of Labor, but also 
as a former director of Public Housing--Housing Authority in 
upstate New York.
    I recognize how important this initiative is and I applaud 
Congresswoman Velazquez for really working on making sure that 
self-sufficiency is achieved by the residents from all over the 
State. We certainly have many communities in the State that can 
benefit from these initiatives. Unemployment rates and poverty 
rates in the State are on the increase and have been increased 
dramatically. Persons with low incomes constitute the largest 
percentage of the unemployed in New York State. Many of those 
living in poverty and low wage earners are residents of public 
housing subsidized by the Federal Government.
    The pilot program proposed in the Together We Can Act to 
train public housing residents for home and community-based 
health care occupations affords the opportunity to field test a 
plan that serves two purposes: Providing training and job 
creation for the unemployed and underemployed; and expanding 
the supply of direct-care workers to assist the elderly and 
disabled.
    The need for direct care workers is being expanded 
dramatically, and I know you're going to hear testimony about 
that later today. The Bureau of Labor Statistics projects that 
personal and home care aides and home health aides will be the 
second and third fastest growing occupation in the country 
between 2006 and 2016, increasing by 51 percent and 49 percent 
respectively. So, there's a great need to fill these positions.
    In New York, a home health aide training program must 
include a minimum of 75 training hours, including 16 hours of 
supervised practical training. There are more than 350 
organizations statewide that were approved to operate home 
health aide programs. And while we believe the scope of the 
existing home health care aide training program includes 
residents of public or subsidized housing, New York State 
currently has no home health care training programs or office 
to specifically serve that target population.
    Our department, the Department of Labor, is a State 
administrative agency under the Federal Workforce Investment 
Act of 1998, the Wagner-Peyser Act. The majority of these funds 
for the Workforce Investment Act, about 85 percent, are 
distributed via formula to the 33 workforce investment areas 
around the State, which focuses on preparing individuals for 
occupations, considering demands in local areas.
    A key challenge for all work force training programs is 
limited resources. The need for these services far surpasses 
our available funds. The Recovery Act also emphasizes the 
importance of providing services to those mostly in need of 
employment training services. These low-income individuals 
often need basic and work readiness skills development in 
addition to the occupational training. They usually have many 
needs for support services, as well. Residents of public 
housing would meet the eligibility requirements of many of 
these programs.
    I would like to note that in New York State, we are trying 
to implement a sector-based coverage to all of our training 
programs. Health care is one of the sectors that we have 
targeted as an important growing industry here in New York 
State.
    We're focusing on that along with green and renewable 
resources and advanced manufacturing in the State. It's 
important that we promote wrap-around supportive services to 
all the clients in the employment and training system. 
Transportation, childcare services, these are often barriers 
the employed and unemployed individuals need to overcome in 
order to be able to be gainfully employed.
    To accomplish this, the department has tried to take the 
lead in developing partnerships and collaboration around the 
State with sister agencies from all States and local. For 
instance, Public Housing Authorities and local Workforce 
Investment Boards are working together to form the connections 
that work best for their local communities.
    And as mentioned before, HUD and USDOL issued a mass 
mailing to all PHA and WIB directors encouraging 
collaborations. So, we support that and we also are supportive 
of the Earnings and Living Opportunities Act.
    One thing I would like to point out is the importance about 
the labor unions in discussions around that. There's a great--
and I'm sure the chairman will talk about how NYCHA works with 
labor unions, which have been very successful in bringing the 
right people to the table. So, we applaud the efforts.
    [The prepared statement of Mr. Musolino can be found on 
page 73 of the appendix.]
    Chairwoman Waters. Thank you.
    Mr. John Rhea?

  STATEMENT OF JOHN B. RHEA, CHAIRMAN, NEW YORK CITY HOUSING 
                           AUTHORITY

    Mr. Rhea. Thank you. Chairwoman Waters, Representative 
Velazquez, and members of the subcommittee in the New York 
Congressional Delegation, I am John Rhea, chairman of the New 
York City Housing Authority. Thank you for this opportunity to 
discuss NYCHA and to express a support for the important 
legislative measures and the economic opportunities for public 
housing residents.
    As you noted, the New York City Housing Authority is the 
largest provider for low and moderate public houses in the 
United States for over 400,000 New Yorkers living in public 
houses and another 97,000 families receiving rental assistance 
through the Section 8 Program.
    As NYCHA's newly-appointed chairman administered proving 
quality of life for residents, NYCHA is a powerful economic 
engine to generate significant returns of local companies or 
citizens of the City.
    Sharing their economic benefits with our residents is their 
key priority. This means increasing jobs and business 
opportunities for our residents. NYCHA's core population is 
working families who comprise nearly 50 percent of our public 
housing households. These families are a stabilizing and 
contributing force within public houses and the City. They 
continue to be fundamental in NYCHA's success. With the 
infusion of the American Recovery and Reinvestment Act fund and 
housing authorities nationwide, the focus on enhancing resident 
employment opportunities cannot be more timely.
    One of the key tools available to housing authorities 
across the country is to promote economic opportunity, a 
mandate of Section 3. So, the proposed Earning and Living 
Opportunities legislation modify the current provisions of 
Section 3 of the Housing and Urban Development Act of 1968, to 
support the goals of Section 3. It is a challenge to implement 
and has long been an unfunded mandate to require NYCHA and 
housing authorities across the Nation to divert scarce 
resources to administer the program.
    The current expenditure was $2 million annually for 
resident employment with Section 3 compliance for NYCHA alone. 
We welcome the funding proposal of this bill. Dedicated funding 
will enhance the capacity of housing authorities certainly to 
implement Section 3.
    However, to make this legislation meaningful, the funding 
level should be significantly increased from $5 million 
nationwide to at least $50 million, with a separate set-aside 
for funding for resident-mentoring programs to work with 
residents as they participate in Section 3 training.
    Additionally, housing authorities should be granted 
flexibility to include other recipients of HUD assistance, such 
as Section 8 participating families, in the employment 
priorities. One of the things that the proposed legislation 
does not address, such as economic restraints and local labor 
conditions, makes it difficult to achieve the numbers 
contemplated by Section 3.
    The provisions of the draft bill sending an immediate 
requirement to 30 percent of new hires and 30 percent of hours 
worked be performed by residents, while understood in spirit, 
is too aggressive. The reality is that few, if any, housing 
authorities would be able to comply with Section 3.
    Alternatively, we recommended 30 percent of new hires be 
the standard, as it is an achievable goal given the contractors 
in-place workforce, and the total percentage of hours worked by 
Section 3 employees should be prescribed in the contracts as 
they are determined during negotiations.
    Finally, we are particularly concerned that the proposed 
sanctions outlined in the bill include the reductions for 
future funding for housing authorities unable to meet the 
hiring and contracting targets. The bill will inadvertently 
punish residents and the sanction would adversely impact the 
ability of non-supplied housing authorities to maintain core 
services for residents and, most likely, result in reduced 
services. We believe sanctions should be directed to 
contractors and unions that are unwilling to participate in 
Section 3 programs.
    You should also consider the fact that many of the skills 
and training programs are run exclusively by unions that are 
unable to provide an adequate amount of training slots for the 
number of residents contemplated by this bill.
    Additionally, the bill imposed a requirement that will 
reduce opportunities for otherwise qualified contracts, 
particularly the minority/woman-owned businesses. Many 
subcontractors are unable to absorb the hiring requirements 
contained in the draft bill.
    Very quickly, I would like to address the attention of the 
proposed home and health care legislation. NYCHA and 
Congresswoman Nydia Velazquez launched the proposed pilot 
program involving home and health care training for NYCHA on 
Lower East Side at one community center.
    The proposed bill in 2009 establishes a compelling grant to 
fund training for public housing residents as home and health 
care aides to provide home-based health care. Given the growth 
in the health care industry, we think that this is an 
invaluable bill, so we look forward in working with you.
    [The prepared statement of Mr. Rhea can be found on page 90 
of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Graham?

   STATEMENT OF YVONNE J. GRAHAM, DEPUTY PRESIDENT, BROOKLYN 
                            BOROUGH

    Ms. Graham. Good morning. I'm grateful for the opportunity 
to represent Marty Markowitz.
    Good morning, Chairwoman Waters, and the rest of the 
Representatives. I'm grateful for the opportunity to represent 
Brooklyn Borough President Marty Markowitz and to present his 
testimony on his behalf.
    First, I want to thank Congresswoman Velazquez for your 
distinguished record of leadership and for recognizing the need 
to find creative approaches to increase job opportunities and 
health care access for residents and publicly-subsidized 
houses.
    Let me begin by directing the Together We Care Act, which 
will target Medicaid eligible seniors and the disabled by 
providing them with needed home health care assistance, while 
at the same time providing skills training and job 
opportunities in the home health care field for residents in 
public housing so they work with those seniors.
    Brooklyn benefits from this program in many ways. First, 
according to the New York City Housing Authority, as of May 
2009, Brooklyn had the greatest number of conventional public 
housing in New York City with 100 developments and 58,452 
apartments.
    Second, our borough has the highest concentration of 
seniors in New York City, with 280,610 in 2005. The Department 
of City Planning projects that by the year 2030, the borough 
will have as many as 410,000 elderly residents, a 45 percent 
increase since the last census in 2000.
    In nearly every category--income, housing costs, 
disability, and linguistic isolation, Brooklyn's elderly 
residents face greater health challenges and are hospitalized 
at higher rates for most major diseases compared to other older 
New Yorkers.
    Of course, we know that people, particularly the elderly 
who live in poor socio-economic conditions, frequently have 
difficulty accessing medical and preventive services, and 
experience barriers in obtaining assistance to manage their 
chronic health conditions so that they can stay active and 
enjoy optimum health.
    Recruiting and training home health aides from public 
housing to offer a variety of elder care services will serve 
many purposes. It will undoubtedly be a cost-effective and 
dignified way of enabling people who are elderly, disabled or 
ill to live in their own homes instead of health facilities or 
institutions.
    These home health aides have to provide medical, physical, 
and psychological support which adds greatly to the quality and 
quantity of life for the elderly.
    In addition, the fact that the participants of the program 
will be drawn from public housing and provided with skills 
training and job opportunities will not only ensure that they 
have an income, but also is an expeditious route to self-
sufficiency.
    Further, as the baby boomer generation begins to retire, 
the need for this training program will become more pronounced 
as they would require more health care services. We already 
have a shortage of home-based health care workers. Therefore, 
this program will fill a critical gap.
    Also, dollars that will going to these communities for 
training will create jobs and strengthen the budgets of the 
community-based organizations that are currently losing 
funding.
    Clearly, this is win-win situation for all stakeholders 
involved. However, in addressing people's critical needs, the 
program's success should ultimately be judged by the benefits 
and performance, and we offer the following recommendations:
    First, that the program's efforts to recruit participants 
increase retention and encourage self-sufficiency, and provide 
home health aides with financial incentives or earnings 
comparative to industry standards, so that these paychecks 
would be more attractive than a welfare check.
    Second, that psychosocial support and financial literacy 
issues are included during the trainings and thereafter aimed 
at increasing program participant's knowledge about money 
management and how to build the personal and financial 
resources they need to achieve and maintain self-sufficiency, 
as well as responding to their psychosocial needs.
    The second piece of the proposed legislation, the Earnings 
and Living Opportunities Act, would affect over 2.5 million 
Brooklyn residents. Again, with the highest concentration of 
public housing, Brooklyn proves to be a major beneficiary of 
this legislation. As a way to improve compliance, the 
legislation suggested use of existing local resources. And I 
would like to suggest that the downtown Brooklyn advisory and 
oversight committee be added to a list of local resources for 
HUD.
    Again, I thank Congresswoman Velazquez for her leadership. 
And Brooklyn looks forward to working with all of you.
    [The prepared statement of Brooklyn Borough President Marty 
Markowitz can be found on page 64 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Council Viverito, did I pronounce your name correctly? Is 
it ``Viverito?''

 STATEMENT OF THE HONORABLE MELISSA MARK-VIVERITO, DISTRICT 8 
             COUNCIL MEMBER, NEW YORK CITY COUNCIL

    Ms. Mark-Viverito. Thank you. Chairwoman, if you would just 
give me a 1-minute preamble and not take it from my time--I 
just wanted to say on behalf of myself and Speaker Christine 
Quinn, and to the Chair of the Public Housing Subcommittee and 
members, thank you very much for holding these hearings here in 
our chambers and you are very welcome to have them in the 
future. It's a great pleasure to meet you. And, obviously, we 
appreciate your team leadership as well as Congresswoman 
Velazquez on behalf of public housing and residents. Thank you 
very much.
    Chairwoman Waters. You are welcome.
    Ms. Mark-Viverito. Good morning, Chairwoman Waters, 
Representative Velazquez. My name is Melissa Mark-Viverito and 
I'm a member of the New York City Council representing the 8th 
Council District, embracing the area of East Harlem, Manhattan 
Valley, and a portion of the South Bronx.
    I want to really thank Representative Velazquez and the 
members of the subcommittee for the opportunity to testify at 
this hearing regarding two important pieces of legislation.
    Within my district, I represent about 20 housing 
developments comprising about 12,500 units. The public housing 
is one of the largest concentrations of public housing in the 
City of New York. So, this is becoming a passion of mine and it 
becomes a real issue of concern and priority to me, personally.
    Having represented the district for over 3\1/2\ years--and 
I'm just speaking with unfortunate familiarity of the 
difficulties that many of my constituents have in obtaining 
training for jobs that provide useful career-oriented 
employment and the challenge at stake by this constituents in 
seeking and receiving health care services.
    Representative Velazquez's Together We Can Act--together we 
can act to establish that pilot program, which concurrently 
tackles two of the major hardships affecting public housing 
residents today: the lack of training and skills that leads to 
gainful employment; and the equally dire need for greater 
supervision and care for elderly or disabled public housing 
residents, to which I referred earlier.
    The pilot program that this bill creates will allow many 
unemployed and underemployed public housing residents who lack 
the necessary skills to find work in the current economy, to be 
trained in a profession with high demand.
    The competitive grant program will be run by HUD and this 
pilot program will also generate opportunities for a broad 
array of entities, which are public companies, agencies, 
community health centers, home care provider organizations, as 
well as faith-based and legal organizations, of which many 
applied to receive these funds.
    One thought that I would like Representative Velazquez to 
consider is that the bill would require that the grant funds be 
spread out among two or more different types of organizations 
in each area in which the pilot program take place. It's better 
to evaluate the effectiveness of each type of organization's 
training program and the quality of care that results from it.
    Another change to the bill that we would like for you to 
consider is ensuring that in each of the four target areas--
urban, rural, Native American, and non-State populations--a 
statistically significant minimum number of residents in public 
housing are both trained and cared for through the pilot 
program in order to more realistically gauge and accept on a 
wider scale, even if greater appropriations are necessary.
    And it must also be said that despite our present economic 
difficulty, the authorized appropriation--which I have 
mentioned, the $2.5 million--we think it's really--and I'm sure 
you will agree as well. Now, we would love to see that increase 
to have the great impact that this legislation merits.
    I believe that these changes will help to improve the pilot 
program that it implements, and it would not in any way detract 
from the fact that the proposed legislation marks an important 
step for achieving two important goals, increasing useful 
training and employment for public housing residents.
    Now, the second piece of the legislation, the Earnings and 
Living Opportunities Act, substantially amends Section 3 of the 
Housing and Urban Development of 1968, an important section 
that tends to generate employment and training opportunities to 
low- and very-low-income individuals. And we had hearings on 
that, as well. I hear this a lot from residents with regard to 
Section 3, Section 3, and having that money come back to the 
community as a way of uplifting our community.
    So, it's an important issue. And it becomes more important 
now that we have $400 million coming from the Reinvestment Act 
into NYCHA for capital improvements, to see that money impact 
our communities directly.
    The bill addresses and tends to rectify a number of the 
major problems of Section 3 since its adoption in 1968, 
including the lack of oversight and noncompliance with these 
regulations. The proposed legislation establishes a series of 
substantive and procedural elements should provide a sharper 
focus with the program's efforts.
    The first, mandating the creation of an office within HUD 
designed exclusively for the administration of Section 3, will 
better assure compliance with the program, establishing clear 
statutory priorities with respect to who is to be trained by 
recipients of HUD funds, and then employed by HUD, will better 
assure that residents of the development where the funds are 
expended, followed by residents of the neighborhood, are the 
biggest beneficiaries of the on-the-job-training programs.
    The proposed legislation goes further and sets explicit 
percentages for low- and very-low-income persons who are newly 
hired by recipients of HUD funding and mandates that they be 
given paying work. This is an important improvement that has 
real potential for benefiting those who Section 3 was designed 
to help and is further enhanced by requiring that at least 10 
percent of the value of contracts for work performed using HUD 
funds be allocated to businesses controlled by persons of low 
and very low income.
    Additionally, the report to Congress that the HUD Secretary 
and the GAO must provide should serve as an added incentive to 
ensure compliance at the local level. The bill also creates an 
arsenal of sanctions, though it would perhaps be beneficial to 
create or enhance mechanisms to ensure that the sanctions are 
sufficiently utilized when appropriate.
    So, thank you very much. I thank you for the hearing. My 
testimony is in the record. You will have your recommendations.
    [The prepared statement of Ms. Mark-Viverito can be found 
on page 60 of the appendix.]
    Chairwoman Waters. Thank you all very, very much. I'm going 
to recognize myself for just one question and then I'm going to 
return it to Ms. Velazquez. I think she probably has lots of 
questions that she would like to ask, so I would rather direct 
my question to Mr. Trasvina.
    In your testimony, you note the abysmal level of compliance 
with Section 3, requiring reporting it at only 25 percent. 
Although this is an increase from 4 percent in 2007, perhaps 
more troubling is the fact that in more than 80 percent of 
reports submitted, the recipient failed to comply with Section 
3 and didn't provide a reason for the failure.
    Basically, these entities received Federal funds but failed 
to hire public housing residents as the law requires. Is the 
Department planning to take action against those entities that 
submitted Section 3 reports and clearly made no effort to 
comply with Section 3 hiring requirements? What type of actions 
can the Department do?
    Mr. Trasvina. Thank you, Madam Chairwoman.
    In the immediate term, the three Secretaries who are most 
relevantly affected by this are Community Planning and 
Development, Public and Indian Housing, and Fair Housing and 
Equal Opportunity. We will be advising all of the public 
housing entities of their requirements to comply with the law. 
And we will seek their compliance right away.
    I believe that the current abysmal rate that you quoted, 
and I think it's correct, does not reflect the actual conduct 
of the public housing entities, but it reflects the reportings. 
And they have received what we believe is not accurate guidance 
in the past about the requirements to fill out the forms.
    We don't know whether that rate is so small. It can 
actually mean that they are not hiring or they're not reporting 
that they are hiring.
    In either way, because of the language of ``to the greatest 
extent feasible,'' we have found that the best way of obtaining 
greater results is not so much by requiring enforcement of any 
particular recipient's requirements, but by increased 
training--and training so that they will better report what 
they are actually doing. But right away, within the next 60 
days, I'm sure we're taking other steps particularly on our 
money and to make sure that we get greater results.
    Chairwoman Waters. Thank you very much. As you know, the 
Housing Authority convenes in Washington regular conferences. 
And Ms. Velazquez and I can remind them that they have a 
responsibility to report it so we'll know what is going on. We 
look forward to working with you again.
    Mr. Trasvina. Thank you very much.
    Chairwoman Waters. I will now recognize Ms. Velazquez.
    Ms. Velazquez. Thank you, Chairwoman Waters.
    You know, in the last 8 years, we heard so much about 
transparency and accountability. But when it comes to Federal 
programs serving low-income communities, if we measure results, 
there was neither transparency nor accountability.
    I promise you that in the next 8 years, there's going to be 
transparency and accountability. And for those who try to use 
the fact that by putting oversights and legal teeth into 
legislation, that we are punishing residents because when we 
say we are going to cut funding until you get it right, well, 
you have just one order of business and that is to get it 
right. So, we are giving you an opportunity for local 
authorities to make it right on behalf of public housing 
residents.
    And so, I have been working on Section 3 for almost 17 
years. And if we look at the numbers--the numbers, if we have 
any numbers because there hasn't been any data collection. So, 
how do we in Congress introduce legislation to address 
shortcomings of programs if we don't have any data to base our 
reaction assessment or reforms to those programs? But this 8 
years, we promise we are going to be on top of it.
    So, Chairman Rhea, you say that jobs targeting of the 
Earnings and Living Opportunity Act punish residents because 
housing authorities will find it hard to comply with. However, 
targets will make the recipients and their contractors 
accountable to the community.
    So, how do you suggest we bring more accountability and 
transparency to this program? How can housing authorities work 
with unions and their contractors to achieve this?
    Mr. Rhea. Thank you, Representative Velazquez.
    First, I would like to comment that I share your passion 
and amendment to ensure that Section 3 had more teeth in it and 
had a more effective form moving forward in the years to come 
and the months to come.
    I also share your opinion, that I don't have patience for 
excuses for not implementing Section 3 within New York City 
Housing Authority components that we control.
    The comment that I made and suggestions to have teeth 
around unions and contractors, because there are pieces of 
these economies that would change and NYCHA does control it as 
a direct manager. Where we have led by example, I would like to 
point out that over 25 percent of current NYCHA employees are 
public housing residents. Where we have that ability, we 
aggressively employ our residents. Over 65 percent of our new 
hirees have been current NYCHA residents.
    In terms of putting more teeth in the legislation and in 
the process, we created, as a panelist mentioned, an 
apprenticeship program with the unions 3 years ago, in which we 
targeted 300 new jobs that would be created by bringing members 
of public houses into the union as apprentices.
    They have only been able to hire about 225 people over that 
3-year period, so they have come up short on the 300 target. 
And of the 225, only roughly 150 or so are still actively 
employed as members of the union. Others are out of it or are 
sitting on the bench just given the nature of the economy.
    So, we are looking to have the apprenticeship program be a 
major component of Section 3 legislation going forward in the 
way we're going to implement it. And we want to have those 
targets be publicly identified and to honestly report how we're 
performing against them.
    Some of the challenges that the union has pointed out are 
that the apprenticeship programs with the unions are really 
for, you know, uncles, cousins, brothers, and sons, and not for 
public housing residents.
    So, ultimately, we have to work very hard with the union to 
change that perception.
    Ms. Velazquez. Well, we have to change that culture.
    Mr. Rhea. Exactly. And I believe that--I'll partner with 
you and we need your help to change that culture, but we can't 
act like that culture doesn't exist and it doesn't impede our 
ability to make progress.
    Having said that, as we look at the work we have done with 
the unions, we believe that putting very stiff penalties, so if 
they don't get those targets, for example, to create a fund in 
which they would pay into. And that fund will be used for the 
training of public housing residents. So, that there's actually 
even if they come up short, there's real economic penalties. 
And the economic penalties actually go to help public housing 
residents.
    Ms. Velazquez. Okay. Thank you, Mr. Rhea.
    Mr. Musolino, you have a particularly interesting 
background. You were executive director of the Troy Housing 
Authority and now you are the New York State--you're working 
for the New York State Department of Labor. So, in your 
experience, how can we make the Section 3 Program work best and 
how do we best connect residents of public housing and 
subsidized housing with the job opportunities in their 
communities? How can we get the unions to the table so that 
they too understand that we are all in this together?
    Mr. Musolino. Thank you, Congresswoman. That's a great set 
of questions. I'll give you a couple of things.
    In my experience with the Troy Housing Authority, I will 
tell you honestly that the Section 3 program is something we 
talked about a lot; but I would be lying to you if I told you 
that we made it the top priority in our housing authority.
    At the time I was at the Housing Authority in Troy, we 
suffered very dramatic budget cuts during the previous 
Administration, as you well know, because you fought them and 
we appreciate your record on our behalf in that world.
    There were such dramatic budget cuts that we were concerned 
about, literally, about being able to maintain our facilities; 
and that's what we focused on. We had very little in the realm 
of supportive services for our residents. So, we would try to 
partner with other agencies.
    In some places, that probably works well; in other places, 
that doesn't work so well. There is not a tremendous connection 
at all between housing authorities, and I spoke with my 
colleagues in upstate New York all the time.
    Between housing authorities and the Workforce Investment 
Act System--Workforce Investment Boards--I think there's a 
critical component that we shouldn't underestimate the role 
that they can play here. And I think the fact that the 
Secretary of HUD and the Secretary of Labor sent joint letters 
out to folks saying, ``We should get together, talking to each 
other would be a big help.'' And we can work with the 
Department of Labor as well and try to build some of that into 
our grant program; and we will do that.
    The labor question is also a difficult one. If people see a 
win-win situation, I believe that they will of course move 
forward. And labor unions around the State are starting to see 
that they do need replacement workers, that the old network we 
all recognize consisted of the cousins, the brothers, the 
whatever, isn't actually providing the replacement workers who 
were needed in this economy.
    One of the issues that I'll pose, which is very important, 
is to enter into the apprenticeship programs, there are 
barriers--sometimes they are educational barriers. Most 
apprenticeship programs require at least the GED or a high 
school diploma.
    So, we should work very hard at pre-apprenticeship 
programs. Those are the kinds of things we should actually 
partner with housing authorities around the State to put right 
into the facilities to develop these pre-apprenticeship 
programs that will allow us this gateway--this entry point into 
labor unions.
    Ms. Velazquez. So, there will be a time for a coordinated 
effort between Federal, State, and City Governemnts, especially 
in this program.
    Secretary Trasvina--I love to call you Secretary Trasvina--
congratulations and thank you for all the work that you did on 
behalf of the workers' rights in this country through the work 
you did with MALDEF.
    You mentioned in your testimony that HUD entered into a 
memorandum of understanding with the Department of Labor to 
better serve public housing residents. How will the Earnings 
and Living Opportunities Act help your efforts to connect 
residents with employment opportunities?
    But also, based on your experiences, do you think that this 
approach will further the goal of Section 3 or hinder it?
    Mr. Trasvina. The proposed legislation certainly will 
advance the goals. One of the most important parts of the 
legislation is the idea of the registry of Section 3 
businesses. That is critical, to take away the excuse of ``We 
can't find the workers,'' or ``We can't find the--.'' Providing 
that is very, very important.
    Second, in terms of the partnership between the Department 
of Labor and HUD, it's critically important following up on 
that. And we know that in many of the occupations that we 
talked about in Section 3, many of those are male-dominated 
industries. We need trainings to bring women into those 
industries. I'll speak with the women of the Department of 
Labor to see what we can do on training, what can we do to 
publicize the opportunities.
    So, I would say that in a number of areas, the legislation 
goes very far to advance and make Section 3 more than a 
promise, to make it a reality. I would hesitate, though, about 
creating an office within HUD, separate from where it is now.
    While Section 3 is not about fair housing, it strikes at 
the core of equal opportunity. And what has been lacking in the 
past is a coordination among departments as well as within HUD. 
And you now have a commitment from the Secretaries, certainly, 
the Assistant Secretaries, to take it on in a meaningful way.
    And I would like to have the opportunity to make some 
changes within our compliance, within our strategies to make it 
work and really put some accountability and have it as part of 
Fair Housing to make more opportunity.
    Ms. Velazquez. Thank you for that, Mr. Trasvina.
    I worked with the President and his Administration in the 
provisions that were included in this American Incorporated 
Pre-Investment Act related to small businesses. And every time 
that I work on a provision that was included, they ask me, 
``For this amount of money, how many jobs you will be 
creating?'' So, we need to justify. So--and do all mathematical 
analysis.
    My question to you is, you say that about $7.8 billion are 
Section 3 eligible. How many jobs do you expect will be 
created? And can you explain for the benefit of those residents 
who are here in the audience, how can they access these jobs?
    Mr. Trasvina. It is very difficult to ascertain. Putting 
$7.8 billion into a number of jobs, because it talks of new 
hires, rather than people being brought on otherwise.
    Also, one of the other glaring obstacles, Section 3 
compliance, is just in terms of stating the annual reporting. 
We have noted the lack of reporting. But even in terms of when 
an entity is supposed to report, some report on a calendar 
year, some report on a fiscal year, some report on the 
anniversary of their receipt of HUD funding.
    So, we have myriad ways of calculating the jobs that are 
going to be presented for other funding.
    One of the other benefits of your legislation, the new 
legislation in effect, for Fiscal Year 2008, Section 3 should 
have covered $17.5 billion of HUD funding.
    Under your legislation, it would cover almost double, $35 
billion. So, we will see a dramatic increase in the results, 
the number of jobs that are going to individuals who are in 
public housing or live in those areas.
    Chairwoman Waters. Let's focus on the stimulus package. Are 
all of the public housing developments (inaudible).
    Mr. Rhea. No, they are not.
    Chairwoman Waters. In the stimulus package, who made the 
special effort to put the writing in there for broadband? And I 
know a lot of people think of it as raw arrogance, but that's 
for underserved areas, and that is job creation. I would hope 
that New York City will use that money because that's job 
creation, to put broadband in.
    Mr. Rhea. The New York City Housing Authority is currently 
working with Mayor Bloomberg's team to jointly submit 
applications with competitive money for broadband activity. 
It's obviously both in the homes and as well as in our 
community centers. We can do it in a joint, easily addressable 
community location. So, we're looking at both.
    Chairwoman Waters. Thank you.
    Ms. Velazquez. Chairman Rhea, you say in your testimony 
that 36 contracts totaling $130 million will be awarded by 
December of this year. How many of those are Section 3 eligible 
and how many of the jobs created with this money will go to 
public housing residents.
    Mr. Rhea. To date, of the $423 million in stimulus funding, 
we have already awarded 39 contracts for $145 million. And we 
project somewhere between 150 and 200 jobs directly created by 
that. Remember that the headline numbers look at the total 
value of a contract. Obviously, a significant percentage of 
that is not for employment but for goods and services.
    And so the employment we are striving, we have targeted the 
term that we use, for all contract over $500,000, we mandate 
that 15 percent of the labor cost be given to the new hires in 
Section 3.
    Ms. Velazquez. When you put out a contract for contractors, 
did you request as part of the agreement a job contracting job 
goal in terms of Section 3.
    Mr. Rhea. Yes. That's what I was referring to. In the 39 
contracts we have put out for bid, we have stated the number of 
new jobs that will be created by that--
    Ms. Velazquez. With the public housing residents.
    Mr. Rhea. That's true. And then the number that will be 
available to public housing residents. And that's an important 
factor of our analysis and evaluation bids.
    Ms. Velazquez. So, we can come back and hold a hearing here 
to measure how many jobs were created? What type of oversight 
NYCHA will have in place to make sure that they did, not the 
best effort, but really will show what kind of action NYCHA 
will be taking with those contractors who fail to achieve those 
goals?
    Mr. Rhea. I would welcome working with you on that on an 
ongoing basis, and I would welcome a hearing that looked very 
deeply at what NYCHA was or was not able to achieve and some 
very direct explanations for why we did what we did.
    Ms. Velazquez. We're talking here nationwide, $4 billion. 
You didn't see that type of investment in public housing in the 
last 8 years, never. So, this is your one shot that we have to 
empower low-income people who live in public housing who are 
seeking jobs. And we have to help and make it right. And we 
will do everything that it will take. And I am sure that, under 
the leadership of Congresswoman Waters, we will have the 
oversight that was lacking in the last 8 years.
    And I have the last question to Assistant Secretary 
Henriquez.
    What do you consider to be the primary need of elderly 
public housing residents? Is it access to disability-friendly 
apartments? Help with everyday living assistance? Or is it 
something else?
    Ms. Henriquez. I think I should say yes to all of those. I 
think the greatest need for seniors right now across city 
housing and public housing is the access to services so that 
they can live independently longer in their own homes.
    We have seen that time and time again--and I don't have 
empirical data, but when you have a senior who has to be 
relocated and displaced into a different facility, it does tend 
to shorten their lives.
    And so, if you can keep them longer where they're familiar 
in their neighborhoods, etc., then it is better to build a 
basket of services around them so they can be with friends and 
family and well-known communities that they're familiar with.
    And that link helps their ability to want to continue on. I 
think that's the most important part of the work you're 
proposing in your bill. It really goes to do that, to help 
neighbors helping neighbors, if you will, to extend a whole 
variety of things but delivers the staff and the services for 
seniors and really connects intergenerationally.
    Ms. Henriquez. On the second panel, we're going to have 
experts testify to the fact that many elderly are being moved 
out of their apartments. They have this network of friends, 
neighbors that they know. This is where they feel comfortable. 
And they are being moved out of those apartments because 
there's no services in terms of health care. And it is a 
problem.
    We are getting phone calls into our offices from their 
children complaining that their mental health is also impacted 
by this type of action.
    Thank you very much--
    Ms. Mark-Viverito. Can I add something to that? One of the 
issues that we have also taken to heart here at the City 
Council is the NARCs, the National Retirement Communities, 
which is basically allowing elderly people to age in place by 
providing support networks. And we have committed some money to 
it and we find it be very useful.
    I think public housing is the next frontier for that. There 
are a lot of people who are aging in our public housing 
developments, and we're not providing them adequate support 
services.
    To whatever extent your legislation proposal could also 
speak to that, naturally occurring retirement communities--I 
know the Department for the Aging is very committed to that, as 
well. And that's an aspect that we're speaking to.
    Chairwoman Waters. Thank you very much.
    I would like to thank this panel for your presentations and 
the time that you have spent with us. We're going to look at 
those contractors who failed to comply, even after the regs 
they had agreed, to push from the Federal level to help you 
realize your goals.
    The Chair notes that some members may have additional 
questions for the panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and to place their responses in the record. This 
panel is now dismissed.
    And I would like to welcome our second panel.
    Thank you very much.
    Before we get started, I would like to announce that 
Congressman Ed Towns regrets that he will not be able to attend 
today and he wanted me to share that with you.
    Also, we just got a message that Congressman Meeks is just 
getting off the airplane and he is on his way here. We expect 
him at any moment.
    Ms. Velazquez. Chairwoman Waters?
    Chairwoman Waters. Yes.
    Ms. Velazquez. I would like to recognize New York City 
Housing Authority Board Members, particularly Ms. Lopez who has 
been fighting Section 3 for so many years. And she was a member 
of the City Council and is now a member of the New York City 
NYCHA's board.
    Thank you.
    Chairwoman Waters. Welcome.
    I'm pleased to welcome our distinguished second panel. Our 
first witness will be Mr. David Jones, president and CEO of the 
Community Service Society of New York City.
    Our second witness will be Mr. David Rammler, attorney and 
director of Government Relations, National Housing Law Project.
    Our third witness will be Ms. Lisa Burris, director of 
organizing, Good Old Lower East Side.
    Our fourth witness will be Mr. Douglas Rice, policy 
analyst, Center for Budget and Policy Priorities.
    Our fifth witness will be Ms. Carol Rodat, New York policy 
director, Paraprofessional Healthcare Institute.
    Our sixth witness will Ms. Suleika Drinane, president and 
CEO, Institute for Puerto Rican/Hispanic Elderly Incorporated.
    Our seventh witness will be Mr. Larry McReynolds, executive 
director, Lutheran Family Healthcare.
    And our eighth witness will be Mr. Keith Joseph, vice 
president, Home Care Division, Service Employees International 
Union 1199.
    Without objection, your written statements will be made a 
part of the record. You will now be recognized for a 5-minute 
summary of your testimony. When I first hit the gavel, it will 
indicate that you have a minute left.
    Okay. With that, let us start with Mr. Jones.

  STATEMENT OF DAVID R. JONES, PRESIDENT AND CHIEF EXECUTIVE 
      OFFICER, COMMUNITY SERVICE SOCIETY OF NEW YORK CITY

    Mr. Jones. Thank you, Chairwoman Waters. And I would also 
like to give special thanks to Congresswoman Velazquez.
    I have been head of the Community Service Society for 23 
years. And literally, the entire time the Congresswoman has 
stood firm on this issue to improve public housing, and also on 
Section 3. So, I would like to thank you. I didn't think we 
would get this far, frankly. We have been hitting at this for 
so long and it seemed like it was going nowhere.
    Again, thank you for letting me testify on Section 3. CSS 
has long been concerned with the scale and effectiveness of 
Section 3, particularly at the New York City Housing Authority 
(NYCHA).
    More than $1 billion in HUD dollars is spent each year on 
management, operation, and capital improvements. And this year, 
NYCHA, of course, as has been said, is going to get an 
additional $423 million in economic stimulus funds, which would 
open up, we hope, for some further opportunities.
    We have issued a report that is timely in this case that 
really gives lots of statistics on unemployment and labor 
participation rates of the residents of NYCHA that comes 
together fortuitously. And of course, we submitted it. But let 
me just summarize some of the things particularly worry us.
    We estimate that only 51 percent of NYCHA's 23,000 working 
age residents participated in the labor force in 2005. At 
present, we estimated that between 20,000 and 30,000 residents 
are currently unemployed and now are actively seeking work in a 
recession time that's considerably worse than any time since 
the Great Depression of 1930.
    Most are Black and Latino women, many under the age of 24, 
or men of color between 18 and 34. And the fact that over 36 
percent don't have a high school diploma undermines the 
importance of the GED issue, which also raises critical 
questions about what kinds of jobs they're going to be able to 
get, if we don't work at this in terms of Section 3.
    Last week, our New York City comptroller estimated that 
400,000 New Yorkers are currently going to be out of work 
before the end of the recession. And we see worse coming.
    In the Community Service Society report, we think that the 
efforts to strengthen Section 3 provisions to--the ways that 
are suggested are extraordinarily important. It accords the 
first hiring and training priorities to residents in 
developments where HUD funding is expended.
    It's extraordinarily hard, and we see it as a real danger 
to New York, if residents facing perhaps more than 20 percent 
unemployment rates are going to be looking at enormous surges 
of capital construction with no jobs for them. This is not safe 
for the City of New York. And we have to do more than just the 
couple of hundred to date.
    The legal right of action is necessary to really go after 
this. Government has failed too often, and people have been 
left out. And, also, the requirements for hiring for agencies 
and contractors receiving HUD funds. And finally, Section 3, 
all we think is critically important.
    Let me summarize and then stop. We think, however, what's 
missing has to be strengthened. We need performance incentives 
to actually get NYCHA and other housing authorities to actually 
do this. They'll run big deficits. This is a unique skill set, 
actually, to recruit, train, and place workers, even in 
facilities where work is going on.
    They're basically managers of facilities. They're not 
particularly good at this. So we think incentives that would 
actually make it possible for them to put money into the 
recruitment, training, and placement would be critically 
important.
    Finally, I am worried that we have two different problems. 
We have sort of touched upon the problem of the construction 
trades, which are going to get a lot of the money here. I think 
people are being very nice about it. New York has one of the 
worst records in discriminatory practices in construction 
trades anywhere in the country.
    And while that is falling away, we recognize now that to 
expect an immediate reaction of the construction trades is 
going to take most of my lifetime. We need a--that work has 
vital importance. This a wonderful opportunity to start that 
negotiation, coming halfway with the union.
    We need immediate work. If I have so many people out of 
work in 2010, I need job core kinds of operations. I need 
immediate work opportunities. And we have models all over the 
country that are available to do just that.
    So, I see this in two parts. Let's engage the construction 
trades for those kinds of work. But then let's come up with 
worker core ideas that are all over the country, where we can 
mobilize young and old in work force development projects that 
are useful, and people can see immediate gain, but also can 
give wage and some effort in the very short term until we get 
through this recession.
    Thank you.
    [The prepared statement of Mr. Jones can be found on page 
58 of the appendix.]
    Chairwoman Waters. Thank you very much.
    We now recognize Mr. David Rammler.

    STATEMENT OF DAVID T. RAMMLER, ATTORNEY AND DIRECTOR OF 
       GOVERNMENT RELATIONS, NATIONAL HOUSING LAW PROJECT

    Mr. Rammler. Chairwoman Waters, thank you very much for 
this opportunity to testify on behalf of the National Housing 
Law Project with respect to Section 3.
    We have produced ``An Advocate's Guide to the HUD Section 3 
Program'' to assist legal services and other attorneys and 
advocates across the country to do this kind of work. And we 
have been involved in this kind of work for many years. This 
opportunity which we now face, approximately $12 billion of 
recovery funds, and approximately $14 billion of funds which 
could, in one way or another, be channeled through HUD to the 
communities that we speak of, is an opportunity which we cannot 
let pass.
    And so we applaud this bill and many of the provisions of 
it. And we want to help you move forward in any way we can.
    The bill, we suggest, has several very good broad 
perspectives. It broadens the applicability of Section 3, it 
eliminates confusion about differences between public housing, 
community housing and other HUD recipients of funds. And it 
just speaks of recipients of funds administered by HUD. So, we 
think that's important.
    It clarifies the expected performance standards, as has 
been mentioned earlier. This ``greatest extent feasible'' 
standard from the 1968 law has just not worked, because 
``greatest extent feasible'' was whatever you want to put into 
it. And if you're focused on something else, it just doesn't 
happen.
    So, we think not only the continuation of the 30 percent of 
new hires, but particularly the 30 percent hours of work is 
critical.
    We have all been involved in projects where, at the end of 
day, you saw the contractors hire 30 percent of their hires 2 
weeks before the project is over, or give them 3 hours of 
sweeping up work to do at the end of a construction day.
    We were not involved in jobs beyond construction, computer 
jobs and management jobs and all the other kinds of things 
which HUD spent money on.
    So, we think the broadening of the scope of the work, the 
broadening of the requirements to 30 percent of hours, and 
coupled with the 30 percent of new hires is a working structure 
which greatly improves this provision.
    We think that--as we have heard, there has been virtually 
no reporting. It's very hard to figure out what happened and 
whether the law was complied with.
    So, increasing the reporting period from once a year to 
twice a year and, in some, cases requiring quarterly reports in 
situations where there are questions, is a dramatic 
improvement.
    Along with that, requirement that housing authorities 
report and provide their Section 3 plans, in their 5-year plans 
or annual plans, the MTW programs and other kinds of plans that 
they provide to HUD, that's also critical.
    There is going to be public light shone on this process on 
the behaviors of people within the statute. Then on top of 
that, the reporting now allows people to know what's actually 
happening. We believe that the sanctions and private rights of 
action are a critical pieces to make this a reality. If people 
know what their housing authorities are doing and what the 
other housing recipients are doing and have the ability to 
enforce it, that's important.
    Secretary Trasvina indicated that he wished that the 
operation oversight would remain at his office. I'm not sure I 
have a particular opinion on that--and we usually see new blood 
in Washington and we take heart in that in almost every meeting 
I go to.
    Its history, however, is that it has not gotten the 
attention it needs. And so, I think they should be very careful 
with respect to the Secretary. But we do think that the 
sanctions and the private right of action are critical. It has 
to be in the bill, you well know, because in the past 10 years, 
there have been a number of court cases which have said, ``If 
you don't spell it out, we're not going to give it to the 
residents, we're not going to give it to the citizens, we're 
not going to give it to other people in this country.'' So, 
it's just critical.
    The old days of what we used to think of as 1983 actions, 
20 years ago, are gone. So, then, with these new improvements 
in the structure, we believe that the mechanisms which you put 
in the bill to implement this new vision are great support, and 
we support the following issues.
    There is a requirement that the Section 3 coordinator on a 
local level be engaged, whether to share with multiple 
recipients, that's fine. And we may develop a little cottage 
industry, but it's a critical piece. As has been said, it's not 
what housing authorities do.
    We think that the bill emphasizes long-term training and 
real job development and career development and future 
development for people's families. The 5-year provision for 
workers to remain eligible for jobs--
    [The prepared statement of Mr. Rammler can be found on page 
81 of the appendix.]
    Chairwoman Waters. Mr. Rammler, we will have your testimony 
on the record. Thank you very much.
    If I just may take 30 seconds, you just reminded me that we 
have a separate--that is moving through the Congress. It's the 
Moving to Work portion of it that is causing us the greatest 
difficulty. If you want to move to work, you have to make sure 
that you are doing the job; right?
    The light just came on. Thank you very much.
    Ms. Burris?

  STATEMENT OF LISA BURRIS, DIRECTOR OF ORGANIZING, GOOD OLD 
                        LOWER EAST SIDE

    Ms. Burris. That's the solution.
    So, on behalf of Good Old Lower East Side, GOLES 
Incorporated, I want to thank Chairwoman Waters and the members 
of her staff who worked tirelessly, and also my Congresswoman, 
Nydia Velazquez, who, just like they say, has been the champion 
of public houses across the country. Also, the director of Good 
Old Lower East Side, lifelong residents of the Lower East Side, 
and constituents of District 12.
    GOLES is a neighborhood housing and preservation 
organization that has served the Lower East Side of Manhattan 
since 1977 and which is dedicated to tenants' rights, 
homelessness prevention, economic development, and 
communication revitalization.
    GOLES is also an affiliate of the National People's Action, 
a network of metropolitan, regional, and statewide 
organizations that works to build racial and economic justice. 
We work with public housing leaders across the country to 
protect the rights of tenants and ensure the future of public 
housing.
    GOLES wholeheartedly supports the Together We Care Act and 
the Earning and Living Opportunity Act. Both bills will 
increase both job opportunities and health care access to 
residents in public housing and subsidized housing.
    In New York City, public housing residents and Section 8 
voucher holders comprise 7.7 percent of the population. The 
average income for a family who lives in public housing is 
$22,728, less than $700 above the national poverty rate. The 
poverty rate is 21 percent citywide, and in the Lower East 
Side, it is 27.3 percent. Furthermore, unemployment rate is 
rising and it's currently at 9.5 percent.
    These are startling numbers, but which are in line with the 
kind of activities GOLES sees on the ground in our communities 
to address.
    More specifically, GOLES receives dozens of calls every 
week from residents looking for employment as well as help with 
keeping their apartments as they face eviction due to rental 
arrears stemming from unemployment.
    We recently received a request for assistance from a public 
housing resident who is currently under threat of eviction due 
to rent arrears, and she has to choose between caring for her 
disabled child and going to work. No one should have to be in 
this position of choosing between their livelihood and the 
wellbeing of their family.
    Given these stories and these facts, GOLES puts its full 
support behind these pieces of legislation proposed by 
Congresswoman Velazquez. These two bills are being put forward 
at a crucial time in this economic crisis. As mentioned 
earlier, the national unemployment rate is 9.5 percent, and 
this week the Federal Reserve projected that it would reach 10 
percent by the end of the year.
    Lower-income Americans have been affected by un- and under-
employment for longer than this current recession.
    The Earning and Living Opportunities Act and Together We 
Care Act take great steps to address the unemployment needs of 
low-income communities in the neighborhood counties. There's a 
great need in these communities to improve employment 
opportunities.
    These bills provide not just short-term jobs, but training 
towards actual careers that have the potential to lift people 
out of poverty, while taking strides to protect and strengthen 
the communities in which they live.
    GOLES commends the Section 3 amendment, the Earnings And 
Living Opportunities Act, for many reasons. First, it provides 
meaningful training to provide actual careers to residents of 
public housing. Training and employment together form a 
complete system that go a long way in improving people's lives.
    In the introduction to the Together We Care Act, the 
untenable position of choosing between work and caregiving 
responsibilities at home is highlighted. Families are not only 
suffering from the emotional aspects of caring for elderly and 
disabled families, they also struggle to adjust their work 
schedules and often lose or leave employment due to the lack of 
access to quality and/or affordable home care for seniors and 
disabled loved ones.
    Both nationwide and in NYCHA housing, seniors represent 
over 35 percent of the residents in public housing, and the 
unemployment rate is at its highest in 26 years. The Together 
We Care Act tackles both of these issues simultaneously, 
providing a benefit that is greater than the sum of its parts.
    By training public housing residents for careers as aides 
and in home-based services, the Act addresses unemployment and 
lack of skills prevalent in low-income households, but it also 
goes beyond that, making it possible for elderly and disabled 
residents of public housing to get needed care, and it will 
keep communities together.
    For an elderly woman to be able to receive care from a 
neighbor, for a woman to care for her disabled daughter and not 
fear losing her job, these are incredible benefits.
    Thank you for your time. I welcome any other questions as 
Good Old Lower East Side's on the ground residents address 
various issues.
    [The prepared statement of Christy Yanis, member-leader of 
Good Old Lower East Side, Inc, can be found on page 122 of the 
appendix.]
    Chairwoman Waters. Thank you.
    Mr. Rice?

 STATEMENT OF DOUGLAS RICE, SENIOR POLICY ANALYST, CENTER FOR 
                  BUDGET AND POLICY PRIORITIES

    Mr. Rice. Good morning. And thank you very much for the 
opportunity to appear here today. I'm going to speak briefly 
about why and how to reform Section 3 requirements.
    When implemented effectively, Section 3 can accomplish 
three important objectives. First, it can reduce poverty. As 
you know, public housing residents, for example, experience 
very high rates of unemployment. Section 3 can improve personal 
job skills and make more jobs available to them, thereby 
boosting their income.
    Second, Section 3 can overcome spatial barriers to 
employment. For many decades, jobs were moving away from the 
inner cities, where most low-income people live. And Section 3 
addresses this mismatch by opening more job opportunities 
within low-income neighborhoods.
    And third, Section 3 can reduce Federal cost. When the 
incomes of people receiving Federal housing assistance grow up, 
the Federal housing subsidies go down. Each $1,000 in extra 
income earned by a resident reduces Federal cost by roughly 
$300.
    Unfortunately, while some communities are meeting Section 3 
requirements successfully, the general agreement in Section 3 
failed to fulfill its potential. Many jurisdictions, especially 
city governments, appear not to realize or understand their 
obligations under the statute of HUD and the capacity to 
monitor compliance effectively. Despite these problems, it's 
well worth the time and effort to make Section 3 work.
    To do this, we focus on three core areas. First, improve 
Section 3 compliance. Even without legislation, HUD can do more 
to educate grantees about this Section 3 obligation, train 
grantees to implement Section 3 successfully, provide better 
incentives for compliance, and require grantees to submit data 
to facilitate monitoring.
    HUD should also encourage the grantee to use existing local 
resources to monitor Section 3 compliance. Large public housing 
agencies in most cities already have that staff available to 
monitor compliance in government contracts in this core area. 
They need to do the job up to Section 3, as well.
    We need HUD to encourage local grantees in an area to 
identify a single grantee to monitor Section 3 compliance for 
all of them. The draft of the Earnings and Living Opportunities 
Act could also encourage and improve Section 3 compliance.
    The Act would allow the HUD Secretary to award performance 
bonuses to grantees that exceed the numerical goal set by the 
law. And the Act could also put it into statute if we work by 
the standards for measuring Section 3 compliance; the hours 
worked for business, in particular.
    Second, revise the statute to maximize the opportunities 
for federally-assisted households. In HUD funding projects, 
other than public housing, Section 3 obligations apply only to 
constructional rehabilitation and not to activities like 
maintenance, organization, and regular operations.
    Congress should apply Section 3 obligations to all HUD 
funding streams used for management and administration. In 
addition, public housing residents now receive first preference 
for job opportunities under Section 3.
    To increase the potential savings for Federal housing 
programs, Congress should expand the first preference to 
include recipients of any kind of Federal rental assistance. 
And the Earning and Living Opportunities Act does this, of 
course.
    Third, help grantees build capacity to meet Section 3 
obligations. And this is probably Section 3's biggest 
challenge. Many communities have successfully implemented 
Section 3 requirements, designated a coordinator to link 
Section 3 residents and contractors for training and 
opportunities. And the Earnings and Living Opportunities Act 
would require each grantee to do this.
    In addition, when Congress reauthorizes the Workforce 
Investment Act, it should give local workforce boards the 
explicit responsibility for meeting Section 3 job training 
requirements. Workforce for the unemployed develops training 
opportunities, career counseling, and linkages to employers, 
but they haven't yet played any formal role in Section 3.
    Taken together, these will enable more recipients of 
Federal housing assistance to get the jobs and skills they need 
to build a better life for themselves and their families. And 
because the Earnings and Living Opportunities Act includes many 
of these reforms, we consider it very important step forward.
    Thank you.
    [The prepared statement of Mr. Rice can be found on page 95 
of the appendix.]
    Chairwoman Waters. Thank you.
    The next witness will be Ms. Rodat.

      STATEMENT OF CAROL RODAT, NEW YORK POLICY DIRECTOR, 
          PARAPROFESSIONAL HEALTHCARE INSTITUTE (PHI)

    Ms. Rodat. Thank you, Chairwoman Waters and Representative 
Velazquez, for this opportunity to testify today about the 
Together We Care Act of 2009.
    I'm here on behalf of PHI, which is national organization 
dedicated to improving the quality of jobs and long-term care. 
We believe that the quality of care is directly affected by the 
quality of the job. Now, I'll say more about that in a moment.
    I think you have heard people testify this morning about 
the importance of our changing demographic in this country. The 
number of people who have reached age 55 and older, 60, 70, and 
now living into late age need a number of supportive service in 
their community if they wish to stay there.
    The problem is that the demographic shift means that there 
are fewer people of working age to match the needs of those who 
are older.
    We have already heard that New York is the third in the 
Nation in terms of older adults. What you may not know is that 
if you live to be 65 in New York, you will have at least one 
chronic medical condition. And if you are 75 years old, you 
will have three chronic medical conditions and take at least 
four medications.
    Two-thirds of our older adults will need some form of long-
term care and 11 percent will require that care for 2 years or 
more.
    There are two main groups who take care of elderly and 
those with disabilities in our society. The first is family. 
They provide at least 80 percent of hands-on care. The second 
is direct care workers, home care aides, and home attendants, 
and they provide 80 percent of the paid hands-on care. We also 
use nurses and therapists, but they do not provide the majority 
of care. That is why we support the Together We Care Act. We 
recognize the needs of two sets of individuals, which involves 
also critical timing that you have brought today for us to 
consider.
    In New York, we are projected to need 93,000 more home care 
jobs between now and 2016, 65,000 of which are in New York 
City. Taken together, home health aides and personal care aides 
constitute the largest occupational group in the New York 
economy.
    They outnumber our needs for our RNs, for high school 
teachers, for cashiers, for firefighters. This is something 
unrecognized in our society.
    So, let me turn now to the opportunities and some 
cautionary notes. I have heard this morning about your goals of 
self-sufficiency, accountability, and transparency. One of the 
things we need to be cautioned about is that you not provide 
grants to employers who do not provide you that same 
accountability and transparency with respect to wages, 
benefits, and supports. PHI affiliated with a 25-year-old 
worker-owned corporation of the Bronx and employs 1,500 home 
health aides and home attendants.
    Our turnover rate is one of the lowest in the City. We can 
tell you that there are many employers who do not provide the 
access to public benefits and supports that are needed. The 
majority of the turnover on home care, which is anywhere from 
40 to 50 percent, occurs in the first 3 months. You must have 
supports for people reentering or entering for the first time 
as workers.
    This work is not easy. It requires a lot of training and 
support if you're going to succeed. So, I would urge you today 
to use this important legislation to not only improve the 
quality of these jobs, but to also ask for advancement 
opportunities for these workers and ask for the kind of 
practices by employers that make them succeed.
    One other note I wanted to mention. Since Chairwoman Waters 
mentioned broadband, New York is the first State in the country 
to actually use Medicaid funds to pay for telephonic 
monitoring. So, this would be an important adjunct. We have 
programs right here in New York City where we train home care 
aides to use that technology and to apply it to patients with 
these chronic needs.
    Again, thank you, and we welcome the opportunity to work 
with you to implement this important legislation.
    [The prepared statement of Ms. Rodat can be found on page 
108 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Drinane?

   STATEMENT OF SULEIKA CABRERA DRINANE, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, INSTITUTE OF PUERTO RICAN/HISPANIC ELDERLY, 
                              INC.

    Ms. Drinane. I want to thank you for holding this meeting 
today. I am the founding president of the Institute for the 
Puerto Rican/Hispanic Elderly, which is a nonprofit minority-
based, multicultural and multilingual citywide human services 
network of programs and services that serve Latino, African-
American, Asian, and other ethnic minority seniors and their 
families.
    I am proud to appear today before this subcommittee on 
behalf of the Institute, as well as its Hispanic Senior Action 
Council, in full support of Congresswoman Nydia Velazquez's 
legislative proposals under consideration by this committee.
    The Together We Care Act, as well as the Earnings and 
Living Opportunities Act, are each an example of Congresswoman 
Velazquez's longstanding support and tremendous concern for our 
poor and low-income families and seniors in the City, State, 
and Nation.
    I want to thank the subcommittee for this opportunity to 
declare our full support for these two worthy proposals, and to 
speak on several issues that are very much the core of the 
Institute's mission and are my passion.
    First, elimination of health disparities for our Latino, 
African-American, and minority communities.
    Second, securing fair share and access to real job training 
and employment opportunities. And that also includes the health 
benefits that home care workers need; because they give you the 
job but they don't give you the benefits after 29 hours of just 
working.
    And third, protection of older adults to ensure that they 
get the full benefits and entitlements as well as the critical 
supports and services necessary to age in place within the 
community and with dignity, rather than suffer displacement, 
isolation or discontent.
    The institute has come a long way over the last 31 years. 
Today we serve over 100,000 seniors annually through our 
citywide network of programs--senior centers, the majority of 
which are located in public housing.
    Another housing development we have a fully-licensed home 
care agency with all the provisions, so we provide the home 
care but we also do the advocacy so that the clients could get 
access, too.
    And we also have licensed mental health, psycho-education 
social groups that are so important for our community. However, 
we also have a strong Hispanic senior action council, which is 
a very strong advocacy arm. And we're proud of their 
accomplishments. We won the SSI today from the State; an 
inspiration.
    However, our gains for Latino, elderly, and other 
minorities over the years are today seriously compromised by 
the economic crisis. And the worse things we have, like 
poverty, health disparities, unemployment, and sickness and 
homelessness, which plague our communities and they have not 
been professionally and systematically addressed.
    The institute experience in New York City--a 
disproportioned grave burden for disease, disability, and death 
experience by racial and ethic minorities, With significant 
concentration of poor and low-income seniors and families 
within public housing and other subsidized developments that 
lack adequate service and support for job training and 
employment, let alone aging in place, which is so important.
    There is no doubt that the number of seniors which 
increased over the last decade will continue to do so 
exponentially in public housing. Already, there is a serious 
issue of isolation of presence, lack of adequate nutrition 
yielding unhealthy aging and development.
    By the same token, the rate of unemployment over the last 
batch of job training to matches to good jobs to residents of 
public housing, is a major crisis.
    There is no doubt that the legislation proposal on the 
table goes a long way to form the basis of a great model that 
can have a significant impact and lay the groundwork for 
replication in many more deserving public housing developments.
    If I may say, the only disappointment I encountered in my 
reading of each proposal is that I believe that the 
appropriation for each is too low, given the potential and 
promise of the intervention, in the face of the substantial 
problem it intends to tackle.
    Nonetheless, it could be said that, given the support and 
resources, besides the community health centers, the community 
organizations such as us and other organizations are best 
suited and instrumental in providing the training and services 
to public housing residents and to the elderly as addressed in 
the proposal.
    I just want to commend the committee and Congresswoman 
Velazquez for conceptualizing and proposing what we believe can 
be a significant model worthy of broader replication, tackling 
two fundamental but complementary dilemmas in public housing: 
elderly residents who need homecare; and fellow residents who 
need good jobs with benefits in a growing employment sector.
    The institute is ready to assist you. You can now get 
another recommendation.
    [The prepared statement of Ms. Drinane can be found on page 
46 of the appendix.]
    Chairwoman Waters. Thank you.
    Mr. McReynolds?

  STATEMENT OF LARRY McREYNOLDS, EXECUTIVE DIRECTOR, LUTHERAN 
                     FAMILY HEALTH CENTERS

    Mr. McReynolds. Distinguished Congressional 
Representatives, good morning. My name is Larry McReynolds, and 
I am executive director of the Lutheran Family Health Centers, 
the largest federally qualified community health center in the 
Nation.
    Like all federally qualified health centers, our mission is 
to increase access to quality health care and to decrease 
health disparity. Persons living in public and subsidized 
housing are among our target population, and these residents 
are most definitely underserved, underinsured, and have little 
access to health care.
    In 1991, the Department of Health established the public 
housing primary care program, recognizing that community health 
centers were uniquely positioned with skills to meet the unique 
needs of those in housing.
    However, the next step is the further success of these 
programs by adding the funding and the training to allow 
residents to help themselves and their fellow residents.
    Community health centers can be instrumental in providing 
training and services to public housing and subsidized housing 
residents and to the elderly in the following ways:
    Directly providing a contract for training home health 
aides. Many health centers have a strong base of existing 
certified home health aides, vocational, residencies, and other 
training programs upon which to build.
    Health centers are primarily located in low-income 
neighborhoods and have staff who understand the unique need of 
this population, possess the cultural competence to implement 
realistic health care plans, and have existing infrastructure 
for program oversight.
    Health centers have a longstanding record of achieving 
great outcomes with minimal Federal dollars. Health centers are 
best positioned to serve as the medical home for this 
population.
    Community health centers can be instrumental in providing 
services because, frequently, centers have facilities proximate 
to the housing facility, have a thorough knowledge of Federal 
and State assistance programs, and have a billing structure 
that is sustainable. They can deliver on-site or off-site 
service systems, have electronic medical records, which 
facilitate the communication of care plans between the home and 
the provider.
    Statistics show that residents need care and will access 
care if given information in a culturally competent and 
accessible manner. By supporting home health aides who are 
peers, who will understand and know the residents, their 
lifestyles, and their barriers, residents will feel more 
comfortable in accessing care.
    Challenges and obstacles associated with facilitating home 
health services are: gaining acceptance by seniors who do not 
want strangers in their home; working with the residents to 
practice preventive care; follow up supporting documentation to 
assist with medical assistance application; overcoming 
environmental barriers, which slow medical progress such as 
absence of support of family, lack of phone, fresh air, lack of 
food; and maintaining eligibility for services.
    Challenges and obstacles that residents face in accessing 
home health care services are: limited access to 
transportation; language barriers; lack of societal engagement; 
fear of new places, people, and ideas; knowledge of 
qualification for services; and the denial that they need 
assistance because of their personal desire to maintain their 
independence.
    The legislation will lower the cost of elderly and disabled 
health care through increased compliance of care plans, while 
giving the residents the assistance to comply with the care 
plan, linking the residents to a medical home, enabling the 
patient to age in place and maintain their health status and 
independence as long as possible, thus avoiding costly nursing 
home and hospital admissions.
    Reduces chronic illness. Residents have rates of chronic 
illness double the prevalence rate of the community. Therefore, 
diabetes, hypertension, and asthma have many more unnecessary 
emergency room visits and inpatient admissions because of its 
prevalence rate. Simply by aiding residents with these 
illnesses alone can save the system money, offering quality 
supportive services in the right place, at the right time, and 
at the right level of care.
    A review of emergency room departments says that more than 
40 percent of hospital ED visits are for unnecessary non-
emergent conditions. Through training the home health aid to 
work with the care team, this number can be reduced.
    Through this program, people will be put to work who 
largely otherwise would not work. These are neighbors and 
friends who care about their neighbors and understand their 
needs.
    The pilot program of community health centers, which 
started in 1966, has shown over and over again that residents 
are the best one to design programs to meet their health care 
needs. Now the community health center movement is the safety 
net of the Nation. We need to take the next step to provide 
peer supportive services for our most vulnerable. Together we 
care, now let's act.
    [The prepared statement of Mr. McReynolds can be found on 
page 68 of the appendix.]

 STATEMENT OF KEITH JOSEPH, VICE PRESIDENT, HOMECARE DIVISION, 
            1199 SEIU UNITED HEALTHCARE WORKERS EAST

    Mr. Joseph. Good morning. My name is Keith Joseph. I'm the 
Vice President for (inaudible).
    We wish to thank Chairwoman Waters, Congresswoman 
Velazquez, and the committee for allowing us to testify today.
    1199 SEIU represents over 90,000 health care workers in New 
York, Massachusetts, Maryland, and Washington, D.C.
    To me, what is written here is a little--I don't think it 
really gets to what I really represent and what this 
introduction is--
    Chairwoman Waters. You have our permission to throw it 
away.
    Mr. Joseph. Sometimes you follow the script, and it doesn't 
get to what you want.
    I represent health care workers. And the workers who take 
care of--for me, the most valuable people in--I don't know 
exactly--which is the elderly, the disabled who needs 
assistance. And we ask these workers to do actually everything, 
and they go out and do it without quarrel. When you ask who 
takes care of these workers, nobody does--actually, no one 
does.
    But somehow there is money in the system that someone is 
making--for these workers. They're making a lot. And when you 
ask who makes money off the system, no one gets up and says 
actually, because everyone hides.
    I think the reality is that if you introduce any 
legislation that will put workers in a field, there has to be 
oversight to take care of these workers. Most importantly, the 
oversight has to be there so that the employers who have the 
most fancy name for the agency that they represent so dear, 
actually does nothing.
    All of them who handle it, Patient Care, People Care, Best 
Care--who go out there and actually do--supposed to be 
providing care for these workers.
    And when you ask if there's--for these workers together 
with patients in their homes 24 hours a day, and you ask them 
what they actually make, how much they make, most of them make 
the minimum wage, which is low, as low as $7.15. They have no 
health care, no medical benefits.
    You sit and you battle with these employers day in and day 
out to try to actually give these workers what they actually 
deserve. And you fight literally for years, for pennies, to get 
these workers to get what they want.
    And so if you introduce any legislation, if you don't have 
the oversight back to a system where the employers continually 
exploit these workers--they are immigrants, most of them come 
from the third world countries, who do not speak the language 
and they capitalize on the fact that these workers do not speak 
the language and can't actually communicate, because they take 
care of these patients in homes and there is no communication.
    The hospitals, the nursing homes and--who actually give the 
business, who subcontract this business to these licensed 
agencies.
    And when you go to them and you say, ``How could you do 
business with these agencies continually exploiting workers 
daily?'' And they turn around and say to them that, ``We can't 
do anything about it.'' Or, ``They are the ones.'' You have to 
have (inaudible) to regulate the system. To make sure that they 
have the (inaudible) which is--they certify the home care 
agencies. Do not allow licensed agencies to exploit these 
workers.
    Whatever legislation that you put in, the oversight is key 
to make sure that these workers will get decent wages, get the 
benefits that they--continue to provide the valuable service 
that they provide--questions about. And thank you for the 
opportunity.
    [The prepared statement of Aida Garcia, executive vice 
president, Homecare Division, 1199 SEIU United Healthcare 
Workers East, can be found on page 53 of the appendix.]
    Chairwoman Waters. Thank you all so very much for your 
presence here today and for your testimony, as real advocates 
for the people who need to be spoken for, not only in the halls 
of Congress but every legislative body. I appreciate all of 
your comments.
    Mr. Jones, I think what you did was--well, you gave a 
warning that you cannot continue to have this kind of 
unemployment, and people without access to resources. That's a 
concern to be worried about, what does that cause? And I 
certainly hope that you continue to sound that alarm in the 
hope that people are listening.
    Mr. Rammler, you triggered my thinking about Moving to 
Work, as a much more colorful concept as we try and pass 
several--and I'm worried, because some of our housing 
authorities seem to work as a way of making people act in their 
own best interest, punishing people who don't get a job when 
they think they should get a job.
    Conceptually, it is not well-thought through. But you just 
forced me to think about how we can say to those who believe in 
these various things that they have about Moving to Work, and 
all the housing authorities have different rules and ways by 
which to do it.
    The first thing they should be doing is living up to 
Section 3, and making sure that the jobs are made available for 
all of the services and the work that's done for and about 
public housing. That if they are first to step up to the plate 
and offer and make jobs, maybe they have some legitimacy and 
jobs moving to work.
    So we have not passed that bill out of committee, and taken 
a look at that aspect of it. I think that we can move on that 
pretty quickly.
    But also I'm glad Ms. Velazquez is here, because what can 
be more timely than talking about, this is the economy, where 
people are suffering, so without any hopes for employment.
    Also, I recognize that the recommendations and the 
legislation that talks about a coordinator, someone with 
responsibility for Section 3, that's happened to bring the 
resources in and to get training done and to help many of our 
residents, just mainstream; some of whom have never worked 
before.
    You can say what you want to say, but if you are 20, 24, or 
25 years old, and you have never had a job, it's one thing to 
say, ``We're going to put you out of public housing if you 
don't get a job.'' And it's another thing to say, ``Let us 
recognize that we need to put some resources in here to do some 
training to make sure that people have the opportunity to 
realize their full potential. So we here, with many of you 
today, helps to refocus me. I have worked for many years in 
public housing and I think that we really do need to bring all 
of these issues more to the attention to the Congress of the 
United States.
    I think we got lulled a little bit into complacency because 
the attack on the poor was so profound, so strenuous that they 
made us believe that we were jut there to rob the public 
coffers as tax and spend liberals. And I think we backed off. 
Now it's time to back up again and get on this.
    I'm very pleased that Nydia brought me here today so I 
could hear from all of you.
    With that, Representative Velazquez.
    Ms. Velazquez. Thank you, Chairwoman Waters.
    I want to take this opportunity to thank each and every one 
of you here. Your testimony is so compelling and it's just so 
difficult to be sitting here listening to you and I have to ask 
myself, Why is it that people don't get it? Either they're in 
Washington, bureaucrats, a Federal agency, or here at the State 
and city level, everyone is just--this morning when I went to 
pick up--I said to her, ``I was reading the news and it's so 
depressing. It's so depressing. Here we are, we are spending 
$750 billion, and how much money have we given to those big 
institutions too big to fail?''
    And yet unemployment rate continues to go up. And what is 
it going to take for everyone to come together in a 
comprehensive way to see how can we maximize the resources that 
we're putting there, in poverty, to those who are most 
vulnerable.
    Mr. Jones, your report is an incredible one. I just would 
like to ask you, what else would it take in terms of the 
unemployment rate among minorities? Describe how education is 
so critical for unemployment. How can the Earnings and Living 
Opportunities Act proposal address this issue, if it does?
    Mr. Jones. I think we have to recognize that--and I was 
talking about construction firms. Obviously, that's going to 
eat up the lion's share of resources, certainly for $423 
million.
    The difficulty that I raised, really, was historical. My 
father was one of the first Black lawyers to sue the New York 
Sheet Metal Workers because of discriminatory practices.
    But the more critical abuses of the construction trades 
have begun to fall. It's not a unified solid wall anymore. The 
carpenter's union, the laborer's union, actually made big 
strides.
    The difficulty now is that the skilled trades require a 
fairly high level of educational attainment, even to get into 
their apprenticeships. So, if you look at the apprenticeship 
test for carpenters and electricians and plumbers, frankly, I 
don't think many college students could meet it.
    And now we have to recognize that pre-apprenticeship 
programs are going to have to be worked out very carefully and 
not necessarily totally under the union control. That is, start 
a pipeline that will prepare. So it's one of the things we have 
to talk about.
    The GED, which is one of the criteria for many of the 
tests, we have one of the lowest categories of the GED anywhere 
in the Nation. We don't even get to Alabama State. This is sort 
of the dregs of the educational system. It has become the 
problem of many young Black kids. That's all they get or 
contain, because they have been pushed out and dropped out of 
high school. We have a lousy graduation rate in the City of New 
York.
    One of the ways you can start to address--to start to look 
at the sort of cohort of young people in public housing, which 
reflects their surrounding community, and start to organize 
those young people into teams of workers to do basically the 
work, and at the same time, start them on the road on getting 
back on the educational bandwagon so they can have a future. 
People will pay and they line up.
    If you look at summer youth employment and the rest, which 
is not bright right now, people line up by the dozens, by the 
hundreds, by the thousands to get those jobs. We have to make 
those year-round jobs in public housing that combines this 
issue of a wage--it doesn't have to be a pretty wage--and 
educational work that brings them back into line so they can 
have a future.
    So just to leave them out there with no hope, it's not only 
a danger to them, it endangers everyone in public housing. What 
a depressing landscape; no one employed and the young people 
have no future. We have to use this opportunity to break 
through in that discussion.
    Ms. Velazquez. Mr. Rice, Mr. Rammler, I don't know which 
one of you mentioned that this is a win-win, if we get Section 
3 for a housing authority to comply with.
    What else will it take for managers of local housing 
authorities to understand the positive economic impact that 
this Section 3 application will have, in terms of revenues and 
the rentals that increase in the rent that they are paying, and 
the subsidies the Federal Government has to come up with?
    Mr. Rice. That's a good question and I would answer that 
part of the concern--part of public housing authorities is that 
when I talk about savings improved, those savings accrued to 
the Federal Government and not on the public housing authority 
in particular.
    And as I understand it, your legislation tends to address 
it in part by providing extra incentives for housing 
authorities and other local agencies who exceed the existing 
targets. But perhaps, more needs to be done.
    I would assume that--I don't know that for sure, but I 
would assume, based on Mr. Rhea's comments, for example, the 
recurrent public housing operating formula does not take into 
account the cost of Section 3. So that might be something worth 
looking at.
    Mr. Rammler. A second, ma'am.
    In fact, Mr. Rice and I were discussing this before the 
session started, in anticipation of Mr. Jones' testimony.
    But it strikes me that perhaps the housing authorities see 
a resident who has increased income, but then in their 
operating cost, they get penalized for that. So, perhaps, the 
way to do it is to remove that part of the operating funds 
formula, so that when a resident can lower their share--the 
housing authority share for rent--the housing authority doesn't 
just lose the money.
    And perhaps, it was suggested by another speaker this 
morning, in terms of creating a fund, you know, perhaps the 
housing authorities could be encouraged and directed to use 
public money in ways to further the goal. But it's money they 
can use within their operating program.
    Ms. Velazquez. To the rest of the panel, I would like to 
talk to you about your proposal in terms of health care.
    In your work with seniors or the aging population, do the 
needs of elderly residents seem to be uniform across-the-board? 
Or do some require special services as the result of their 
ethnicity, for example--
    Ms. Drinane. Another recommendation, perhaps, in terms of 
centering the Act was to include the cultural competency in 
linguistic--cultural linguistic competency must be included 
with evaluation criteria for a competitive grant. That to make 
a difference, you have to understand the person that you are 
working with in order to understand what kind of service and 
how to deal with a person that comes from a war or just running 
away from their country.
    Look at the diversity of the Hispanic. We don't see 
everybody the same, even though there's a lot of language 
(inaudible). And then there is a diversity--but I think the 
elderly seniors, what you also have to do--in particular, the 
Hispanic elderly--is really be able to talk to them in an 
informal way.
    And they--if you find it familiar and talk to you--you talk 
first, I will give you a quick review. You talk first about--
when you're talking to them, let's say about the family, you 
have to deal with the family, you have to deal with the 
language, you have to deal with the culture and you also have 
to deal with dignity and respect.
    And if you deal with that, you can get the answers that you 
need in order to assist them. You have to go--and then it's not 
a one shot deal. If the person comes with multiple problems--
income, health, housing, they want to have a car, they want all 
of that--and then you have to figure out what to give them and 
work with all of that in order to help them.
    Ms. Velazquez. Is there a difference in the quality of life 
for a senior who received home health care as opposed to 
services in a nursing home?
    Ms. Rodat. Oh, yes. There are numerous differences. Most 
seniors, I would bet that 99 percent of the people you would 
ask, if you ask them if the wanted to stay and to live the 
remainder of their life either in a nursing home or in the 
community, the answer is the community.
    And while you can create a nursing home that has a good 
quality of life--and in fact, New York City has several that, 
with other States in this Nation right now, are changing the 
culture in nursing homes. And they're doing that to make 
nursing homes more homelike, and yet it is still not the same 
as living in a community with your family, your neighbors, and 
close to your friends. It is simply not the same.
    One of the things I just would like to add to the previous 
question, you can do the minimum amount of training for home 
care aides, and you can teach them tasks and you can teach them 
skills. But at its heart, this work--whether you're in a 
nursing home or you're in the community, this is about 
relationships. It's about good relationships.
    And that requires you to develop the skills of listening 
actively, learning how to communicate, learning how to respect 
diversity, and learning how to problem solve.
    Ms. Velazquez. In your work with tenants, public and 
subsidized housing, does there seem to be an appreciation for 
the special needs of elderly residents? And can you also tell 
us a little bit about how did older residents--as they age, for 
example, do they move to buildings with a higher population of 
seniors? Do they rely on younger family members for care and 
assistance?
    Ms. Drinane. We see with the senior population, including 
anything from language barriers to also not having access to 
loved ones who are employed. A lot of times, seniors in public 
housing are asked to verify, because they are (inaudible) 
apartments, which has to be the resident, the whole family, and 
now they have to move to a smaller private apartment on a 
lease.
    A lot of residents are put in a more vulnerable position. 
The family members (inaudible) of options, which are putting 
them in hospital for permanent assistance or moving them to 
one-bedroom apartments and hoping they can be able to provide--
    Ms. Velazquez. In your experience in dealing with public 
housing residents, do you think that NYCHA, the New York City 
Housing Authority, has been responsive to the needs of the 
aging population? Do they actually have a specific program 
targeting the specific unique needs of the aging population who 
lives in public housing?
    Ms. Drinane. Currently, no. With the housing authority 
(inaudible) community service centers, which provide resources 
to seniors. But what we (inaudible) a lot of times, residents, 
seniors face eviction, in instances (inaudible) told to move 
small type apartments and refuse APS, Adult Protective 
Services.
    Oftentimes, our office is bogged down trying to connect 
social services (inaudible) apartments with these seniors, 
ensuring that they get types of support (inaudible). 
Oftentimes, APS and other--they work with the social services 
department (inaudible).
    We have occurring right now a resident facing eviction who 
has cancer. It has been hard for (inaudible) what is going to 
happen in connecting services for them.
    Ms. Velazquez. Mr. McReynolds, you have mentioned that you 
are providing a lot of services to public housing residents. My 
concern is that with the health care reform legislation that we 
are dealing with, there is not specific language regarding 12 
million undocumented people.
    Where do you think they are going to go?
    Mr. McReynolds. I share the same concern. There is no 
solution about things coming out of Washington. I think it is a 
very, very large problem. It will leave 12 million people 
without an answer and that means they go without care or go 
without access--
    Ms. Velazquez. Or they will come to you, community health 
centers.
    Mr. McReynolds. Right. Or they will go to the emergency 
departments. A lot of them don't understand how to work the 
system, so they go to an emergency department, the most 
expensive level of care.
    And then I try to work with emergency departments to find 
people who don't have a primary care doctor, don't have the 
coverage, and then try to educate them about community health 
care.
    Ms. Velazquez. So in our Nation, people started to realize 
that there is no distinction between, violence, attacking 
illegal, undocumented or an American citizen, right? So it's a 
public health issue and we'll see.
    Thank you, Chairwoman Waters.
    Chairwoman Waters. Thank you very much.
    I would like to thank the panelists for being here today, 
for giving your time. I certainly thank you for your knowledge 
and for your advocacy. And I think that, in addition to the 
support that you are offering for this legislation, you have 
inspired me to take a look at a number of things--I mentioned 
Moving to Work.
    But I'm sitting here thinking about our health care reform 
activity, the debate that we are embarked upon, and nowhere 
have I heard anything about home health care workers, people 
who do very difficult work, taking care of people who 
absolutely need that assistance.
    They're reducing the cost to the system that--people 
staying in their homes instead of staying in institutions. So, 
imagine, working all day and you don't have health care 
yourself, and you're trying to help someone who needs your 
assistance or needs somebody's assistance with their health 
care needs.
    So, thank you for not only speaking on behalf of people in 
public housing and poor people and immigrants, but thank you 
for reminding these legislators that, no matter how good think 
you are, you can do better. Thank you very much.
    Ms. Velazquez. Mr. Joseph, we hear you loud and clear. We 
understand your passion and your commitment. We are committed 
to making sure that people who work in the home health care 
industry get a decent wage.
    Chairwoman Waters. The Chair notes there may be additional 
questions for this panel that members may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to the 
witnesses and to place their responses in the record.
    Thank you. This panel is now dismissed.
    We are adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]




                            A P P E N D I X


                             July 20, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




</pre></body></html>
